<html>
<title> - COMBATING TERRORISM: PREPARING AND FUNDING FIRST RESPONDERS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





      COMBATING TERRORISM: PREPARING AND FUNDING FIRST RESPONDERS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 2003

                               __________

                           Serial No. 108-111

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

92-127              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                        Robert A. Briggs, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 9, 2003................................     1
Statement of:
    Plaugher, Edward, chief, Arlington County, VA Fire and Rescue 
      Department.................................................    57
    Rudman, Senator Warren B., chairman, Independent Task Force 
      on Emergency Responders, Council of Foreign Relations; and 
      Amy Smithson, senior fellow, Center for Strategic and 
      International Studies......................................    15
    Thompson, Adrian H., chief, District of Columbia Fire and 
      Emergency Medical Services Department......................    51
Letters, statements, etc., submitted for the record by:
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     6
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    11
    Plaugher, Edward, chief, Arlington County, VA Fire and Rescue 
      Department, prepared statement of..........................    60
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Smithson, Amy, senior fellow, Center for Strategic and 
      International Studies, prepared statement of...............    23
    Thompson, Adrian H., chief, District of Columbia Fire and 
      Emergency Medical Services Department, prepared statement 
      of.........................................................    53

 
      COMBATING TERRORISM: PREPARING AND FUNDING FIRST RESPONDERS

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2003

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2203, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Turner, Murphy, Kucinich, 
Maloney, Dutch, and Tierney.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, Ph.D, senior policy advisor; 
Robert A. Briggs, clerk; Chris Skaluba, Presidential management 
intern; David Rapallo, minority counsel; Michael Yeager, 
minority deputy chief counsel; and Jean Gosa, minority 
assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Combating Terrorism: Preparing and Funding 
First Responders'' is called to order.
    Well before September 11, 2001, this subcommittee heard 
testimony from first responders and other experts expressing 
frustration over the extent and pace of Federal 
counterterrorism equipment and training programs. They told us 
fragmentation and duplication hobbled a multiagency, 
multibillion-dollar preparedness effort that failed to answer 
the fundamental question, ``Prepared for what?''
    Since the September 11 attacks, much has been done and much 
more has been spent to consolidate and focus Federal support 
for first responders. But a growing body of analysis and 
commentary suggests increased activity still may not be 
producing enough measurable progress toward the elusive goal of 
actual preparedness.
    One recent report of an independent task force sponsored by 
the Council of Foreign Relations [CFR], concluded the Nation's 
emergency responders remain, ``dangerously ill-prepared to 
handle a catastrophic attack on American soil.'' While 
acknowledging some improvement in counterterrorism capabilities 
the CFR report says Federal funding for first responders may 
fall $98 billion short of meeting basic needs for training and 
equipment over the next 5 years.
    Just as ominously, the report says any effort to quantify 
the cost of preparedness will be confounded by the lack of 
agreed-upon measures for success. ``Without establishing 
minimal preparedness levels and equipment and performance 
standards that the Federal Government and State and local 
communities can strive to attain, the United States will have 
created an illusion of preparedness based on boutique funding 
initiatives without being systematically prepared.''
    These are not abstract policy considerations. Without 
standards, time and money will be wasted on a dangerous and 
costly illusion while police officers, firefighters, emergency 
medical teams, public health providers, and emergency managers 
confront terrorism without the tools they need. Nor can we 
afford to wait for a national consensus on standards to emerge 
before funding critical first responders initiatives. The 
threat is now, the threat is real, and local emergency 
responders need to be prepared to meet it.
    Next Monday the city of Stanford, CT, will conduct a 
regional table-top exercise of emergency response capabilities 
against a weapon of mass destruction scenario sponsored by the 
Department of Homeland Security. The simulation will help 
emergency responders to assess and improve readiness against 
terrorist attacks. To sharpen our focus on the needs of our 
first responders, the subcommittee will be there to observe the 
exercises and take testimony from participants on the scope and 
impact of Federal efforts to enhance local preparedness.
    This morning, we are joined by two distinguished expert 
panels of witnesses. We appreciate their time, talent and 
dedication, and we are very grateful for their continued 
contributions to our oversight work.
    At this time the Chair will recognize the ranking member, 
Mr. Kucinich.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T2127.001
    
    [GRAPHIC] [TIFF OMITTED] T2127.002
    
    Mr. Kucinich. From a Midwest region, Mr. Chairman.
    Thank you very much, Mr. Chairman, for your ongoing efforts 
on this very important concern that all Americans have about 
preparing and funding first responders. And I want to thank the 
witnesses. Senator Rudman, thank you for your consistent 
leadership on these matters and, Dr. Smithson, for your 
participation and your testimony.
    And I welcome this hearing today on preparing and funding 
first responders. As our witnesses today will point out, the 
fire, police, and emergency medical personnel who need to 
respond to catastrophic terrorist attacks are underfunded and 
they are unprepared for a wide range of threats. Firefighters 
around the country only have half the radios they need to equip 
a shift. Two-thirds don't have the breathing apparatus they 
need to work in hazardous conditions. Police departments don't 
have protective gear to secure a site following an attack with 
weapons of mass destruction. Public health officials are 
overwhelmed by requests for tests but still don't have the 
basic equipment to identify chemical or biological agents.
    The Council on Foreign Relations released a report earlier 
this summer concluding that we are spending as little as one-
third of what we need to develop adequate first responder 
capabilities. To meet this need, the Federal Government would 
have to increase its current spending, $5.4 billion, five times 
to an annual contribution of $25 billion.
    This past Sunday the President told the American people, 
quote, ``This will take time and require sacrifice.'' He said 
without a trace of irony, ``We will do what is necessary, we 
will spend what is necessary to achieve this essential victory 
in the war on terror.''
    From the President's words, you would think he was talking 
about giving firefighters and EMTs the basic equipment they 
need to do their jobs and that could save their lives in a 
terrorist attack. You would think he would request $87 billion 
additional to meet this need. But the focus of his attention in 
Iraq to pay for the war that we didn't need and that didn't buy 
us one iota of security from terror has created greater 
concerns among the American people. The President and his 
administration were not forthcoming with the American people by 
suggesting that the war in Iraq is part of the war on terror. 
Iraq had nothing do with September 11. There was no connection 
between Saddam Hussein and al Qaeda. In fact, the war on Iraq 
has produced the opposite effect and created a vacuum where al 
Qaeda, which was not operating inside Iraq before the war, is 
now targeting our men and women.
    Mr. Chairman, much of the report that prompted this hearing 
calls on Congress to increase funding for first responders, 
require minimum national standards for preparedness, and create 
a sensible system to allocate resources. Congress should step 
up to the plate. It should do it, first, by rejecting the 
President's request for funding of the war, and should instead 
cause us to bring our troops home. For the safety and security 
of our troops, I say bring them home. And for the safety of our 
first responders, let's start funding police, fire, and EMT to 
levels that they need to protect this country. Thank you.
    Mr. Shays. Thank the gentleman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T2127.003

[GRAPHIC] [TIFF OMITTED] T2127.004

    Mr. Shays. At this time the Chair would recognize the vice 
chairman of the committee, Mr. Turner.
    Mr. Turner. Mr. Chairman, thank you for your continued 
leadership in focusing on the issue of preparedness of our 
country in responding to terrorist attacks and for holding this 
important hearing on the funding and policy priorities for our 
Nation's first responders. This is an appropriate time for us 
to examine the needs of our first responders during the week of 
the second anniversary of terrorist attacks on the World Trade 
Center and the Pentagon and after the recently published 
report, ``Emergency Responders: Drastically Underfunded, 
Dangerously Unprepared.''
    I want to thank our witnesses for being here today. They 
are certainly preeminent experts on homeland security and first 
responders. As a former mayor of Dayton, OH, I am especially 
interested in examining the Federal role in aiding first 
responders. Dayton, OH was one of the few cities that had a 
weapons of mass destruction preparedness exercise prior to 
September 11, exercises that Attorney General John Ashcroft had 
attended.
    Federal assistance to local first responders became even 
more crucial and valuable since the attacks of September 11, 
2001. Police officers, firefighters, and EMTs are being asked 
to train and prepare for events that are even more terrifying 
and destructive than the acts of crime and violence that they 
see on a routine basis. It was local first responders who 
bravely answered the call on September 11, and it will be the 
local teams who respond to future attacks. And I am pleased 
that we will hear from two fire chiefs whose departments 
responded to the Pentagon attack on our second panel today.
    The Council on Foreign Relations report, ``Emergency First 
Responders: Drastically Underfunded, Dangerously Unprepared'' 
identifies many areas where the Federal, State, and local 
governments need to increase their funding, improve their 
cooperation and communication, and invest in training and 
equipment.
    The threat of terrorism is unknown, incredibly difficult to 
prepare for. This report is the first of its kind, an attempt 
to account for across-the-board first responder spending. I 
look forward to hearing how Congress can effectively assist 
first responders and how the Federal Government can efficiently 
maximize the dollars it spends on first responders and homeland 
security. I am particularly interested in the issue of how the 
Federal Government can assist in coordination and benchmarking 
the needs of individuals and our people who are on the front 
line, our first responders. Thank you.
    Mr. Shays. At this time the Chair would thank the gentleman 
and recognize the distinguished lady from New York, Mrs. 
Maloney, who just recently returned from Iraq.
    Mrs. Maloney. Thank you, Mr. Chairman.
    Yes, with your leadership there on the issues that we were 
confronting in another problem area. And I thank very much the 
Honorable Senator Rudman and Dr. Smithson for joining us today 
to discuss the critical issue. And as chair of the Democratic 
Caucus's Task Force on Homeland Security and as a Member who 
represents Manhattan and Queens and one who lost, I should say, 
500 constituents on September 11, you are obviously talking 
about an issue that is very close to our hearts. In fact, the 
safety and security of our homeland is something we can all 
agree on, and it is truly a bipartisan issue because we are all 
advocates of tough homeland security and we should all 
celebrate the successes and work together to fix the 
vulnerabilities.
    I truly applaud the Council on Foreign Relations for 
working in a bipartisan vein to help all of us better 
understand the holes that must be patched and for really 
changing the debate about homeland security. Your report has 
had a tremendous impact on the thinking of Members of Congress.
    I have met with Jamie Metzl, the members of my task force, 
and in fact he addressed the entire Democratic Caucus on the 
findings of the report and the importance of it. And we thank 
you. Many people were awed by the report's estimate that we 
must spend almost $100 billion more on emergency responders. It 
is a very important report that really hit the mark and we do 
thank you for it.
    My home city is New York and we are target No. 1. When the 
rest of the country is orange, we are red. And today we are 
just 2 days before the second anniversary of September 11. And 
this is the news from New York: Just last week the city 
received its very first Federal homeland security grant of $30 
million. That's $30 million to prepare New York City for 
another attack and $87 billion to rebuild Iraq. Our mayor tells 
us that we spend $23 million a week just making sure that New 
York is safe, and we applaud him and the police and responders 
for having thwarted some attempted attacks to New York.
    And here's another story that's almost unbelievable. The 
firefighters in New York City, they told me that they are less 
prepared today than they were before September 11. They say 
that the famous communication radios that didn't work on 
September 11 still don't work. The city has closed six 
firehouses this year. I'm gagging when I give you this 
information. And there are 530 fewer firefighters on the street 
at any given time in New York City today than there were on 
September 10, 2001. That is hard to believe, but those are the 
facts given to me yesterday from the New York City Fire 
Department.
    Our task force has been learning more about the needs in 
hometowns across the country from the men and women on the 
front lines. They say that homeland security is a strain on 
local governments; that there has been a lack of guidance from 
the Department of Homeland Security and that there has been a 
lack of money from the Federal Government. It is one thing when 
people in Washington are talking about homeland security needs. 
It is another when the men and women dedicating their lives to 
making ours safe from terrorism say over and over again to 
anyone who will listen that they need more help.
    So, I am very very thankful that you are here today. I look 
forward to hearing your comments. I have read your report many 
times and I am deeply grateful for the tremendous leadership 
role
that you have played in focusing debate in a bipartisan way on 
homeland security needs. You have not gotten enough 
appreciation from the public or from Congress for your hard 
work and so I thank you for having this hearing today. It's 
important.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T2127.005

[GRAPHIC] [TIFF OMITTED] T2127.006

    Mr. Shays. You don't think he's gotten enough appreciation?
    Mrs. Maloney. No, I don't. I don't, because it certainly 
hasn't been translated into a direction of policy or dollars or 
the bottom line of taking the recommendations and turning them 
into action.
    Mr. Shays. Let the day begin here.
    Mrs. Maloney. OK.
    Mr. Shays. Mr. Ruppersberger.
    Mr. Ruppersberger. OK. Mr. Chairman, first thing, I want to 
really applaud the Council on Foreign Relations for the 
bipartisan approach to deal with this issue. During the 
September 11 incident, I was a county executive and understand 
the needs of putting your first responders, your police, your 
firefighters, your paramedics, and spending the overtime and 
the money that is necessary. But what really a lot of this 
comes down to in my opinion, and I hope that we can develop 
this issue today, is the matter of priority of funding.
    There's no question that once our Commander in Chief, the 
President, decided to go to Iraq that we had to stand behind, 
and I think that we have to do what we have to do--and we won't 
get into that issue now--with respect to our military and give 
them the resources that they need. But our first responders 
need the resources also.
    In the Second Congressional District of Maryland that I 
represent, we have NSA, we have two Army bases--Fort Meade and 
Aberdeen. I have BWI Airport and the whole port of Baltimore. 
And there are a lot of issues involving the resources that are 
needed to detect any weapons of mass destruction, but also to 
deal with issues involving the intelligence that is needed, 
working with the State, Federal, and local authorities.
    So from my perspective from being in local government and 
now coming into the Federal Government, it's a matter of 
priorities. The tax cuts just aren't working. We need to 
reevaluate our entire situation now. We have never in the 
history of our country been at war--and we are at war with 
Iraq, we are at war with Afghanistan, and we are at war with 
terrorism. We must reprioritize and give the resources to first 
responders. Thank you.
    Mr. Shays. I thank the gentleman.
    And we have just been joined by Mr. Murphy. Mr. Murphy, do 
you have any statement before we begin?
    Mr. Murphy. Not yet. Thank you.
    Mr. Shays. OK. Thanks for being here.
    And Mr. Tierney. I'm sorry, the Chair would recognize Mr. 
Tierney.
    Mr. Tierney. Good morning and thank you for being here with 
us this morning. I just have some brief remarks about local 
preparedness. I have just had the opportunity to meet with most 
of my chiefs of fire and police and other first responders and 
to do a bit of a survey on how they felt the Federal Government 
was dealing with the situation. And I think it's pretty clear 
that they have done what they have been asked to do. You know, 
they have planned--immediately after September 11 when we 
gathered everybody together, they were told to put their plans 
together, those that hadn't already done that, and they did put 
their plan together. They have expended tremendous amounts of 
resources on overtime, personnel and training, and what 
equipment they could gather in some pretty difficult times and 
climate in their own States and localities.
    They could certainly use, they tell me, some minimum 
national standards of just what it is that they might be 
expected to do in particular situations, and they look forward 
to some guidance on that end of it. Particularly I think one of 
my chiefs mentioned to me that when it goes from yellow to 
orange, what? You know, just what are they supposed to do? And 
what is enough security at a nuclear power plant or what is 
enough security at a chemical manufacturing plant? And just 
some minimum guidelines there would be extremely helpful to 
them.
    They need a better communication system, obviously. And I 
think that's something that we have had a great deal of 
conversation with. I know that there are plans in the works now 
to put an interoperable system together. We have had some folks 
out of Cambridge, Professor John Donovan and others, working on 
that. And they have a prototype going on the military side of 
things. We'd like to see one done in a couple of districts so 
that we could get an idea of how it works and then bring it up 
to scope and scale so that everybody is on the same page when 
an incident occurs as to what is going on and how people should 
react and be able to do that.
    So they need the resources. They would prefer it without 
State bureaucracy getting between the Federal distribution and 
them. They feel that they're really constrained on flexibility. 
If it comes down and they're not allowed to use it on overtime, 
sometimes it isn't of as much valuable to them. Or if they need 
equipment and it's only limited to personnel, those type of 
issues still remain unresolved. So all of those things have 
come to their attention.
    They have needs of overtime, personnel constraints, 
communication, and some guidance. And I hope that in the 
context of your testimony this morning, you will touch on those 
points and let us get back to them with how we might be doing 
in that area and move together toward resolving these issues.
    I agree with my colleague here that we are spending 
enormous sums of money to secure Iraq and to give people there 
a sense of security. I think we should have put a comparable 
amount of attention to making the people in this country feel 
secure as they move forward, and I think we can do that and I 
look forward to your cooperation in doing that. Thank you. 
Thank you.
    Mr. Shays. I thank the gentleman. Before recognizing the 
panel, let me just deal with two housekeeping measures. I ask 
unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record, and the 
record will remain open for 2 days for that purpose. And, 
without objection, so ordered. I ask further unanimous consent 
that all witnesses be permitted to include their written 
statements in the record. Without objection, so ordered.
    We are very fortunate and I think you're seeing this 
reflected in the participation of the membership, both on the 
issue and in terms of our participants on our two panels. We 
are fortunate to have Senator Warren Rudman who is chairman of 
the Independent Task Force on Emergency Responders, Council on 
Foreign Relations. This is the genesis of what this hearing is 
about. He's currently a partner at Paul, Weiss, Rifkind, 
Wharton and Garrison. And he's a two-term Senator from New 
Hampshire and this committee has known him in particular for 
his outstanding work on the Hart-Rudman Commission. As many 
will remember, there were three commissions, the Bremer 
Commission, the Gillmore Commission and the Hart-Rudman 
Commission. They all agreed on understanding what the terrorist 
threat was, developing a strategy to respond to it, and to 
reorganize to implement that strategy. But the Hart-Rudman 
Commission believed we needed the most radical reorganization, 
and ultimately that's what this Congress decided to do with the 
Department of Homeland Security. Great to have you here, 
Senator Rudman.
    We are also joined by Dr. Amy Smith, senior fellow, Center 
for Strategic and International Studies as of last week, and 
previous senior associate at the Simpson Center's directed 
chemical and biological weapons nonproliferation project.
    If I could get you to stand up. As you know, this committee 
swears in our witnesses and then we'll hear your testimony.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that the witnesses have 
responded in the affirmative.
    Senator, we're going to start with you. You have as much 
time as you may want. We're going to turn the clock to 5 
minutes, and then do another 5. Bottom line, we want to hear 
from you. Senator, you're on.

 STATEMENTS OF SENATOR WARREN B. RUDMAN, CHAIRMAN, INDEPENDENT 
    TASK FORCE ON EMERGENCY RESPONDERS, COUNCIL OF FOREIGN 
    RELATIONS; AND AMY SMITHSON, SENIOR FELLOW, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Senator Rudman. Well, Mr. Chairman, thank you; and members 
of the committee, thank you all very much. I have to tell you I 
have testified on the Hill now since Hart-Rudman probably 30 
times before a variety of committees, and I am going to be very 
blunt with you. I am really quite taken with your opening 
statements. I mean, most opening statements are, if you will 
pardon me, in the Senate and the House opening statements. What 
I have heard this morning is a keen understanding of this issue 
which is not surprising when I'd consider the personal history 
of some of you on the panel who have served in State 
legislatures, as mayors, as county executives. You obviously 
have taken a lot of what I was going to say and put it in your 
statements, and I appreciate that because this is an issue that 
has nothing to do with partisanship whatsoever. This is an 
issue that really we have to get our hands around, and we 
haven't.
    Now, as you know, and we testified here over a year ago, 
Senator Gary Hart and I originally did a study for the Council 
on Foreign Relations and it ended up saying America's still 
unprepared, still in danger. It was subsequent to that, the 
council asked if I would move forward and chair another panel. 
The reason Gary Hart didn't was at the time he was considering 
running for President and obviously you can't have anybody in 
that role who is going to cochair an independent task force. 
And so I undertook it. If you look at the people on the task 
force, it's a remarkable assembly of people: two former 
chairmen of the joint chiefs of staff, head of the FBI and the 
CIA, the head of the National Football League and the National 
Basketball Association--why? Because they deal with huge 
numbers of people in very large, very threatened venues--as 
well as a Nobel laureate and a number of other very 
distinguished Americans. The result of that report you have all 
looked at, obviously, and you are all very familiar with it.
    And I would start out and I'm going to summarize very 
briefly the key recommendations by simply making a statement 
that I have found no one who could disagree with and that is 
this: When we sent our young men and women into Iraq--and they 
are still there--we made sure, to the extent that the 
technology was available, that they had everything they needed 
to protect them from any threat that they might face, whether 
it be chemical, biological or radiological. The Defense 
Department, with the full support of the Congress, made sure 
that they had what they needed.
    Now, contrast that to the following situation. When 
something happens in this country, and unfortunately, most 
people predict it will, it is not anyone in Washington or in 
the Armed Forces that will respond to that. It is your local 
police, your local fire, your local EMS people and your 
hospitals. They will be the front line at least for a while, 
depending on the extent of the damage. The other thing you have 
to consider, and this is a rather interesting statistic which 
was pointed out to me not long ago, and Congresswoman Maloney, 
I'm sure this will strike home with you, the ratio of people 
that are killed or injured is normally heavily skewed to 
injury: Usually 7 to 12 to 1. Not so with the World Trade 
Center. It was so catastrophic. You had nearly 3,000 people who 
were killed, and a relatively small number of people who could 
be taken for treatment.
    It is unlikely that kind of a scenario will repeat itself. 
And so you truly need emergency responders who are able to 
ameliorate and minimize the kinds of damage that will be caused 
to maybe thousands of our fellow citizens, depending on the 
kind of attack, whether it be chemical, whether be it 
biological, dirty, or conventional nuclear, or even as 
threatening--large amounts of explosives which are detonated in 
heavily populated areas can cause enormous damage.
    We need only look at what happened in Oklahoma City, to 
look what happens in Israel, unfortunately, every other week, 
what happened in Iraq on several occasions, to recognize that 
it not necessarily only high-technology weapons that cause the 
threat.
    Now, let me point out, as we put out in the report, that 
this report does not criticize the administration or the 
Congress. We understand that this is a relatively new issue 
facing us. This all started in terms of government response on 
the 11th, although I must say that there were warnings from 
several groups, including Hart-Rudman and Bremer and Gillmore 
before the events. Having said that, the government has moved 
at its usual pace. It's taken a while to get the Department of 
Homeland Security put together. It is obviously not fully 
functioning yet, nor should we expect it to. But I'm sure it 
will.
    Congress has the very difficult decision of prioritizing, 
and so let me start out by saying what I think is the single 
most important recommendation that we made. If you look at the 
history of the Department of Defense, the thing they've been 
very good at is doing threat assessments, and then based on 
those threat assessments, deciding what capabilities were 
needed in the various parts of the Armed Forces to meet what 
those threats were. Then they come up here and they tell the 
Congress, the House and the Senate, what they think their 
priorities are. Then you apply your wisdom to it. You negotiate 
with the administration and you come up with a set of funding 
priorities.
    Now, the problem we have right now is we don't have that. 
And Dick Clarke and I--who is unfortunately ill this morning 
and was supposed to be here--testified before the Senate last 
week and told them what I'm going to tell you here. What we 
need is a mandate for national minimum standards for homeland 
security for first responders. Now, we all understand that 
there are three parts of homeland defense. There is prevention, 
which is intelligence, and other law enforcement means of 
preventing. There is protection, which goes to airports and 
cyber structure, infrastructure, chemical plants, nuclear 
plants. And there is response. We are dealing only with 
response in this. But we think it is probably the single most 
important minimum standard.
    We work, by the way, with some remarkable people. You've 
got two fire chiefs going to testify here, just terrific people 
we work with from the National Association of Firefighters, the 
Police Chiefs Association, the National Emergency Responders 
Association. We work with the National Hospital Association, 
all the public health officials.
    So this report is not a report from 12 or 14 Americans who 
got together in a room and talked about it. This is what your 
constituents told us, and we have put together a report which 
reflects what they think. Now, it is up to you to decide how 
you want to prioritize.
    Congressman Kucinich before he left said you shouldn't 
spend any of the money on Iraq, you ought to spend it all on 
homeland security. I'm sure there are many who disagree with 
that. What you have to decide, because you're elected to decide 
as I once was, what are the priorities? But you cannot 
establish priorities until you know what the standards are. 
What should be the standard in the city of New York for its 
police, fire and emergency responders?
    Now, having said that, let me just go through a few of the 
points which some of you have already touched on in your 
opening statements. Some of the findings that we came up with 
are unequivocal. About half of the fire departments have enough 
breathing equipment for half of their shifts. That simply means 
that--or one-third of their shifts. That simply means that two-
thirds are totally unable to move into an atmosphere of 
chemical or biological contamination. But let me point out to 
you something that we learned in New York. These police and 
fire people go where they can save lives, even if they put 
themselves in jeopardy. I think it's terribly unfair to them 
and their families to send them into jeopardy improperly 
equipped.
    Communication, you all know the story about communication. 
It's still relatively inoperable. That is not an expensive fix. 
It ought to be done. That certainly would be one of the 
standards.
    And most of the public health laboratories told us that 
they do not have the equipment, the expertise, or the personnel 
to deal with even finding out what we're dealing with. And that 
is just unacceptable at any level.
    And on hazmat, hazardous materials, some of the cities do 
rather well, but many do not. There have to be standards which, 
by the way, exist in that area as to what ought to be done.
    Now, where are the funds needed? There are huge amounts of 
funds needed for a national emergency 911 system to be able to 
get data collection and dispatch, and done accurately and 
quickly. FEMA has to have money to enhance its urban search and 
rescue responsibilities, to train local departments to do that, 
which in a normal kind of an attack would be far more important 
than it was at the World Trade Center because of the 
catastrophic collapse of those two buildings.
    To foster interoperable communication systems, to enhance 
the public health laboratories, we believe there ought to be 
some regional emergency operation centers for local public 
safety. We believe there ought to be protective gear for WMD 
remediation equipment to firefighters and police. We think that 
the national exercises of the type that are going on in 
Stanford have to be vastly increased so when people have to 
respond they can respond. We believe that there have to be much 
better emergency agricultural and veterinary capabilities to 
deal with contaminated food supplies, and we think there has to 
be a surge capacity in the Nation's hospitals if there are 
major attacks.
    Now, what were our recommendations, our key 
recommendations? I'll give you four or five of them.
    No. 1, we believe the Congress ought to establish a system 
for allocating scarce resources based more on addressing the 
needs rather than on any political basis based on population 
alone. To do this, you have to consider population density, 
vulnerability, threat and presence of critical infrastructure.
    We believe the House of Representatives ought to transform 
the House Select Committee on Homeland Security into a standing 
committee, and we believe the Senate ought to do the same, and 
it already has a standing committee. But we believe that the 
consolidation of all of these issues ought to be before the 
Senate Governmental Affairs Committee.
    We believe that Congress ought to require DHS to work with 
our Federal agency to streamline homeland security grant 
programs, something that Congressman Tierney talked about. And 
we heard this over and over again. I mean, you don't 
necessarily have to fund grants through States or even through 
counties. There are places where you know what you need, and 
you can fund it directly to a community with a specific rule 
for what it will do.
    And by the way, the oversight is very important. One of the 
things that we have seen with block grants in the past is you 
give a block grant to a community and it goes to supplant their 
own spending. That's not what this is for. This is to add to 
what their spending is going to be.
    Let me just say, by the way, about the $90 billion figure, 
we don't know if that's right and we say so. But the reason we 
don't know is there are no national standards. Once you 
establish the national standards and then you can determine how 
much money is being spent at the local, county, and State 
level, then you can decide what the Federal increment can be. 
I'm sure it's a great deal of money. It may not be $90; it may 
be $60, it may be $45. But until you do a set of standards, you 
just don't know.
    We believe that all future appropriations bills that fund 
emergency response should include strict distribution time 
lines. There has been just too much delay in getting the money 
out that's already been appropriated.
    Finally, I would say these three are fairly important. We 
think that you ought to require DHS and Human Services to be 
part of the standard-setting procedure. They both have 
important roles to play.
    We believe there ought to be an Institute of Best Practices 
established by DHS to work with State and local governments and 
other professional associations.
    And finally, we think that Congress ought to make emergency 
responder grants for fiscal year 2004, and thereafter on a 
multiyear basis, to facilitate long-term planning and training.
    I do not envy those of you who sit where you sit. I was on 
the Senate Appropriations Committee, the Intelligence 
Committee, a couple of other committees, and I have never seen 
a situation where prioritization facing appropriators and the 
Congress in general is as difficult as this one is. I mean, you 
have major problems in Afghanistan. You have major problems, 
according to the President, in Iraq. You have a deficit of 
preparedness that is serious.
    And let me just close by saying this. You know, I've been 
in politics for some time, both at the State and the national 
level. I think I understand something about the response of 
individual Americans to individual actions. I come from a small 
State which is roughly a million or 1.1 million people. You 
tend to get a feel for people pretty well in a State like that. 
Probably you do in the House. Probably less so in the Senate 
where you come from a large State.
    Mr. Shays. There's no doubt about that, Senator.
    Senator Rudman. Well, you only represent half a million 
people, right?
    Mr. Shays. I just want to say, there's no doubt about that.
    Senator Rudman. Well I said it, so you're agreeing with me.
    I'll make this observation: that if there's another 
attack--and I think there will be, it's only a question of 
time--and we have a catastrophe, we are unable to help our 
citizens after all of the warnings we have received, I will put 
it bluntly, there will be hell to pay for those people who are 
policymakers, including all Members of Congress, whether you 
did the right thing or you didn't do the right thing. And so 
from a point of view of doing the right thing and what's 
politically right, this is high priority, and I get the sense 
talking to Members of Congress on both sides of the Capitol 
that people recognize it. So you're going to have to decide.
    Thank you.
    Mr. Shays. Thank you for that very thorough and helpful 
statement and thank you for all your good work.
    [Note.--The report entitled, ``Emergency Responders: 
Drastically Underfunded, Dangerously Unprepared,'' may be found 
in subcommittee files.]
    Mr. Shays. Dr. Smithson, you're recognized. If you 
compliment this committee, the clock becomes irrelevant.
    Dr. Smithson. Delighted to hear that.
    Good morning, Mr. Chairman, members of the committee. Like 
you and certainly like the council's task force, I've spent a 
great deal of time learning from America's first responders of 
all disciplines. Perhaps that's why I'm in such agreement with 
the council's report on emergency responders.
    After domestic preparedness programs were initiated by 
Senators Nunn, Lugar, and Domenici in 1996 to start addressing 
this problem, I began research on how these programs were 
working. In fact, I interviewed responders from 33 cities and 
25 States. My research was presented in October 2002 in a 
chunky report called ``Ataxia.''
    In the last few years, far too many from the front lines 
continue to tell me that they have yet to see a dime of the 
money that the Federal Government is spending on terrorism 
preparedness. Since the key to domestic preparedness--and I 
think I'm hearing agreement on this--lies in improved local 
response capabilities, I applaud the council's recommendation 
to increase dramatically Federal spending to locals. In fact, 
to find a major point disagreement with the council's task 
force, I have to do something slightly unfair, and my 
apologies, Senator Rudman. I have to resort to their 2002 
report which recommended tripling the number of National Guard 
Civil Support Teams. Given the astuteness of their other 
recommendations, the council's backing of this politically 
popular placebo program is somewhat disappointing.
    Here's what the frontline responders, including those 
serving in the National Guard, had to say about these teams. 
And I convey their views with utmost respect to our men and 
women in uniform. Frontline emergency professionals have an 
unmistakable message about these teams. They have minuscule, if 
not negative, utility in disaster response, and the resources 
that they consume could be much better applied locally. Though 
stocked with top-of-the-line equipment, Civil Support Teams 
have practically zero actual emergency response experience, 
which explains why frontliners can regale me with tales of how 
these teams have botched it during exercises.
    One deputy emergency manager bluntly told me, ``The good 
thing about these teams is that it takes them as long as it 
does to get here.''
    On that point, Congresswoman Maloney, the New York Civil 
Support Team arrived at the scene roughly a dozen hours after 
planes struck the World Trade Towers and initiated monitoring 
that was already being done by New York City and U.S. 
environmental authorities.
    The dynamics of chemical disaster response are such that 
the Guard's teams cannot arrive in time to save lives. 
Moreover, their four-person medical component will barely 
register in a biological disaster.
    Consider that the combined $9.4 million that it costs to 
stand up and equip a Guard team with chemical and biological 
gear could instead be used to purchase 6,600 emergency power 
generators, or to buy level A personal protective gear for 
3,700 firefighters so that they could safely enter hot zones. 
With the $176 million required to maintain all 55 Civil Support 
Teams each year, over 586,600 police officers could be equipped 
with high-performance masks that would enable them to stay on 
duty if terrorists use unconventional weapons.
    My point, as the chart in my written testimony amply shows, 
is that were these moneys instead invested in equipment for 
frontline responders who would be at the scene of a disaster in 
minutes rather than in hours, America would be better prepared 
to grapple with terrorist attacks.
    Washington can continue to go about this in an expensive 
and inefficient way, or Congress can get America on the smart 
route to enhance terrorism and disaster preparedness. I think 
we're all in agreement about the need to get money to the front 
lines. But Congress should also direct that exercises be 
conducted on a no-notice basis and that the after-action 
reports from these drills be exempt from Freedom of Information 
Act requests. Doing so would allow response deficiencies to be 
identified and corrected, and that's not what's happening with 
the process as it currently exists.
    Furthermore, I would encourage Congress to mandate that the 
executive branch get swiftly and diligently to work with local 
responders, professional organizations, and Governors to 
develop and institutionalize preparedness standards, just as 
the council recommended and as I did a few years ago. You 
should also insist that burden-sharing arrangements be crafted 
between Federal, State and local authorities so that 
preparedness can be sustained.
    You're not the only ones that have heard already we're 
beginning to backslide on the advances that we've made in 
preparedness. So in chapter 7 of ``Ataxia,'' I made several 
recommendations for cost-sharing alternatives. By formally 
consolidating congressional oversight and exercising these 
responsibilities vigorously, you can eliminate redundant and 
poorly designed programs.
    I have a number of recommendations and information from the 
front lines about how we can get more effective communications, 
and I would also let you know that the council's recommendation 
to have first responders get ready access to best practices is 
actually being put into play by the Memorial Institute for the 
Prevention of Terrorism. Until recently, I participated in a 
project that's about to launch to share best practices and 
lessons learned.
    In closing, if you haven't already, please drop by your 
local fire station, police station, emergency operations 
center, hospital or public health lab and ask frontline 
responders how to streamline Federal programs and get this 
country better prepared. They'll give you an earful. They'll 
tell you what programs are clunkers and what's working right. I 
urge you to listen to them closely to heed
their counsel before you cast votes on homeland security issues 
in the days, months, and years ahead.
    Thank you.
    Mr. Shays. Thank you very much.
    [The prepared statement of Dr. Smithson follows:]

    [GRAPHIC] [TIFF OMITTED] T2127.007
    
    [GRAPHIC] [TIFF OMITTED] T2127.008
    
    [GRAPHIC] [TIFF OMITTED] T2127.009
    
    [GRAPHIC] [TIFF OMITTED] T2127.010
    
    [GRAPHIC] [TIFF OMITTED] T2127.011
    
    [GRAPHIC] [TIFF OMITTED] T2127.012
    
    [GRAPHIC] [TIFF OMITTED] T2127.013
    
    [GRAPHIC] [TIFF OMITTED] T2127.014
    
    [GRAPHIC] [TIFF OMITTED] T2127.015
    
    [GRAPHIC] [TIFF OMITTED] T2127.016
    
    Mr. Shays. At this time we'll begin with our questions, and 
given the number of Members, I think we'll just do 5 minutes 
and we can go on to a second round. It's going stay up there. 
Mr. Turner, you have the floor.
    Mr. Turner. Thank you. I'm asking a question about the 
standardization process. As I said in my opening statement, 
serving as a mayor of a city, a city that had a weapons-of-
mass-destruction exercise prior to September 11, the issue of 
standardization is an issue that I think is going to be a very 
difficult process.
    Let me tell you the story of Dayton. We had a weapons-of-
mass-destruction exercise at an arena. We even closed part of 
an interstate highway, went through a mock decontamination 
process. But the most important thing that we learned during 
all of that was the coordination between the different 
organizations throughout the region--the FBI, we have Wright 
Patterson Air Force Base, the military, the county and the 
State officials--so that when September 11 happened, we were a 
community that went and dusted off our books as to what our 
plan was, and deployed it, and it was a marvelous thing to see 
because we didn't run around saying, who's in charge, what 
should we do? People knew what streets to close. They knew who 
they needed to coordinate with. That's one aspect of 
preparedness.
    When we talk about standardization of preparedness and what 
first responders need, Senator, I found your comments 
interesting about the difference between the population and the 
actual needs of the community. To give you one example, in my 
district there's a small town, Wilmington, OH, that has 
Airborne Express in its back yard. Over a million packages go 
through a sorting facility there every day. And the--in 
Wilmington, OH, their hospital does not have sufficient 
emergency response equipment to respond if something should 
happen at that facility. So they're trying to come up to speed. 
If you did a strictly population-based analysis, you would get 
to Wilmington, OH sometime in 2020.
    And then if you look at the various other communities that 
are around, they all have differing needs. You know, St. Louis, 
with the arch, has different needs than Wright Patterson Air 
Force Base in Dayton, OH. How do we go through a 
standardization process that actually advances our 
preparedness, that we don't get caught in a quagmire of trying 
to overanalyze, but at the same time that we don't miss a 
bunch?
    Senator Rudman. Yeah. Our answer would be generally as 
follows. First, a threat assessment done properly from the 
Federal Government, on down through the various States, 
counties, cities, would identify high-threat targets. And 
you've mentioned one. That's a place where something bad could 
happen in one of these packages that's being delivered. So you 
have to first decide where the threats are.
    Now, obviously, Congressman Maloney is right. New York 
City, Washington, it's very obvious for a lot of reasons. There 
are other major cities as well. However, there are smaller 
places that have critical infrastructure of various kinds that 
have to be identified. So you have to put those in the matrix 
of where the threat assessment comes out. Once you do that, the 
kind of equipment required for various places varies on what 
the threat and the population and the mobility is in a 
particular area. For instance, the State that I come from, New 
Hampshire, could probably have a series of regional units that 
could combine under certain circumstances, whereas a large city 
like Dayton or Syracuse, NY, or Bridgeport, CT would probably 
need much of that equipment. The standardization of the 
equipment for these people is not hard to come up with. We 
already have been told by them what they think a minimum 
standard is, and that will have to be studied in depth to see 
if they're high or low.
    The point you're raising is how does the threat assessment 
combine with that equipment need. And my answer would be, 
thinking about it here this morning, that would depend entirely 
on what the minimum standard would be, and then do certain 
communities need more rather than less? But in terms of the 
police, fire, and emergency responders, the basic kind of 
equipment they need to be able to do their job is a standard 
that should not be hard to set. The hardest thing will be to 
decide what you need in a particular community, and that will 
take a lot of work by a lot of people. But we think it could be 
done in a 6-month to 1-year timeframe.
    Dr. Smithson. Congressman, you're right. The effort to 
create standards is going to be rather complicated. But, there 
are several professional organizations that have a running 
start on this. And if you just ask the locals and do some 
exploration as I did, you'll find a number of professional 
practices that are emerging that can grapple with some of the 
tough response issues. If we can get agreement on these 
professional standards, the way to move this thing forward is 
to put these standards, to have the Governors agree to put 
these standards in local police and fire academies, and to get 
medical schools and nursing schools to change their curricula 
so that future generations are taught, and we're not always 
behind the wheel here. Otherwise, a decade from now, we'll 
still have defense contractors out there teaching various 
practices here and there. We need to do this in a way that is 
cost effective and that gets this information promulgated 
across the country. These military teams that won't get there 
first. I think you already recognize that. It will be the 
neighbors next door that get there first to help you. And these 
are the very people that need the standards in their academies 
and in their colleges and universities.
    Thank you.
    Mr. Shays. I thank the gentleman. I thank the witnesses.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. What about your 
time?
    Mr. Ruppersberger. He'll get time. He's the chairman.
    Mrs. Maloney. OK. Senator Rudman, the only comment I have 
heard from the Department of Homeland Security about your very 
excellent report is that the money that you call for would be 
used to buy gold-plated telephones. And to your knowledge, have 
they gotten in touch with you or with anyone on the council to 
discuss your very thoughtful report in depth?
    Senator Rudman. Congresswoman Maloney, let me just respond 
to that comment. You know, unfortunately--and I don't mean to 
be hard on the public relations profession--but every 
government agency and, quite frankly, every congressional 
office has a spokesman, and they're capable of putting out the 
most incredible dribble. That's the only word that I can use. I 
mean, their natural response is not to even look at what 
somebody said but to immediately go into a full defensive mode. 
Secretary Ridge was pretty hard on that statement on ``Meet the 
Press,'' and I'll take that as being the final word. That was a 
stupid statement. We weren't looking for gold-plated 
telephones. We'd like the New York City fire and police 
departments to be able to talk to each other.
    Mrs. Maloney. Has he reached out, regardless of the 
inappropriate statement, has he reached out to speak with you 
in the Department about the report?
    Senator Rudman. Some of our staff have talked to some of 
their staff. They have not contacted me personally. Nor did 
they after the last report we did.
    Mr. Shays. Will the gentlelady yield? You know that will be 
a good basis for us inviting some people from the Department of 
Homeland Security in to just talk about this report, and maybe 
if someone from your staff wants to participate, we would allow 
that as well.
    Senator Rudman. We would be happy to do it. I mean the fact 
is that I have met at great length with John Gordon, who's now 
got Tom Ridge's job in the White House, General John Gordon, 
retired four-star. We've talked about the report a great deal 
from the White House point of view. I have not personally 
talked, but people from our group have talked to staff at DHS.
    Mrs. Maloney. I would like to go back to one of your 
comments on fairness and going where the threat is. And press 
reports this year highlighted the unfairness, really, of the 
homeland security grant distribution program, and one report 
showed that under the latest version passed by the Senate, 
Wyoming would be getting $32.25 per person, while New York 
City, by all accounts, by all analysis, target No. 1, would 
only get $4.60 per person. And we've heard talk from the 
administration about changing the formula. As Secretary Ridge 
has publicly said, he does not support this. He thinks it 
should go where the threat is. But we've seen nothing really of 
substance besides rhetoric.
    And what is your opinion of this grant distribution 
formula? And what is your advice on how we can get it changed 
in a way that really focuses on where the threat is, because 
everybody says, ``Oh we should.'' But when you look at the 
paperwork that's moving through Congress, they're not. They're 
going on a formula that really is more of a political formula 
than a threat formula.
    Senator Rudman. We totally agree with you. I believe 
Secretary Ridge agrees with you.
    Mrs. Maloney. He does publicly.
    Senator Rudman. And we have laid out in our report the 
metrics of how we believe you ought to proceed. It is based, 
first, on a threat assessment and then based on the standards 
that you set, and then apply those to the various communities 
to see what they need. Obviously, you need a higher density of 
expenditure for New York City then you do for Manchester, NH. 
It's a whole different situation. And it cannot be done the way 
it's being done presently, because then you will be essentially 
putting more money where it's not needed and less money where 
it is needed. So----
    Mrs. Maloney. So you would start off with a threat 
assessment.
    Senator Rudman. The threat assessment, the standards, and a 
distribution formula based on that.
    Mrs. Maloney. Threat assessment, the standards, and 
distribution base on that.
    Senator Rudman. And I might tell you that this government 
is very good at doing that. I mean, there are plenty of systems 
analysts who are employed in this government who know exactly 
how to do that. But this appears to me to be a very hastily 
thrown together formula for distributing money.
    Mrs. Maloney. It's a political formula.
    Senator Rudman. I believe it is.
    Mrs. Maloney. It's not--and we were speaking yesterday with 
Doug Duncan, who is the Montgomery County, MD executive, and he 
told us that in order to prepare his county for terrorism, he 
has had to cut the budget of education and other social 
services. And have you heard similar stories around the country 
and does it surprise you?
    Also Dr. Smithson, I would love a copy of your report. I 
haven't read that one, although I've read this one several 
times.
    Senator Rudman. We have heard that and I would also point 
out something that has not been mentioned here this morning. I 
don't know if you're aware of this or not, but we now have less 
policemen in this country than we did on September 11. Now, 
that's hard to believe. There are less police due to budget 
cuts across the country than there were on September 11.
    Mrs. Maloney. Based on whose stats?
    Senator Rudman. We have the statistics from the National 
Association of Chiefs of Police and other places.
    Mrs. Maloney. I'm out of time.
    Senator Rudman. And I believe New York is one of those 
places.
    Mrs. Maloney. Well, police and fire are less than what they 
were.
    Mr. Shays. Thank you. Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    Senator, I am particularly interested in this report, some 
of the issues involving hospital and health care providers, 
because I think that when we talk about first responders we 
usually think paramedics, police, and firemen and getting to 
the scene. But, of course, the next step is getting them to the 
hospital in a coordinated way. And I know in my region around 
Pittsburgh, some of the concern is how we communicate with tens 
of thousands of nurses and physicians, tell them where to go 
and how to get there and what to be ready for when they do get 
there. Now--and thinking how to use paging systems, BlackBerry 
systems, personal devices, phones, etc. Now, when we look at 
this other level of what happens if there was a power grid 
meltdown, how do you get ahold of anybody? Any suggestions of 
what should be done in that sort of a preparedness?
    Senator Rudman. One of the things that you will find in the 
report is a section on exactly the point you're talking about, 
public hospitals. They are absolutely a part of this whole 
emergency response team. They have to have not only surge 
capability, but they have to have communication capability with 
people that they've never had the necessity to have that kind 
of communication with before.
    My suggestion would be that you have to get some people who 
are really skilled in the area of communications to answer that 
question. I'm not in a position to answer it. I mean, if you 
get a major attack on a city that takes out cellular telephone 
facilities and relay facilities for pagers, you have a serious 
problem responding.
    Now, there are communities that have a plan that in the 
event of an emergency, emergency workers at hospitals are told 
if there is an emergency and you hear about it, here's what you 
do. So they don't have to be communicated with. It's kind of a 
standard operating procedure for what you do if something 
terrible happens downtown, and I think that is something that 
most good hospitals probably already have in place. I don't 
know that for a fact.
    Mr. Murphy. Well, I know some of the ones that I used to 
work at are doing that very thing. But they had also hoped to 
recognize that sometimes if there is what's a biological or 
chemical attack, obviously there are chemical issues, and they 
also have to be told how to get there and other routes to take 
and how to not be caught up.
    But one of the things we learned from September 11 is that 
so many people were trying to use pagers and cell phones that 
the system shut down. I know around here they thought, well, 
BlackBerries worked, but now we know that if you overload that 
system, that shuts down too. And so we do have that other 
issue. And I am wondering in terms of other funding aspects if 
there's any direction we should be looking at here to help with 
the communication network.
    Senator Rudman. I think when you have to--when you set 
national minimum standards, that will be part of the issue: 
What are the minimum communication requirements for a reliable 
system under adverse circumstances? Nobody seems to know that 
yet. We've got--now here in D.C., there is an interesting 
experiment going on with the use of different kinds of software 
that means you don't have to replace all of the equipment. And 
that's a very interesting approach. It's being done here and 
I'm sure there are people in the D.C. Police Department and the 
Park Service that can tell you about what they're doing.
    Mr. Murphy. Dr. Smithson, do you have any comments on those 
issues?
    Dr. Smithson. Yes. In the aftermath of Aum Shimrikyo's 
attack in the Tokyo subway on March 20, 1995, physicians at St. 
Luke's Hospital, which received a flood of patients within 
minutes of this event, were reduced to shouting down the halls 
at each other in order to communicate.
    New York City on September 11th and some of the other 
things that we've seen transpire tell us that we've got a 
communications issue. Having traveled so many places and talked 
with so many jurisdictions, I can, unfortunately, tell you that 
there are only a few that are making real progress on regional 
hospital planning. This is a very, very tough nut to crack 
because of the privatization of U.S. health care.
    And that is why Federal assistance in this regard will be 
so crucial. We need to get hospitals in the same room with each 
other to plan and we need to develop plans to reach out to 
these medical health care providers.
    And if communications go kerflooey, do you know what will 
save the day? People will be well trained if we have standards. 
They will know where to go when disaster strikes and what to 
do. Unfortunately, absent standards and absent sufficient funds 
for regional hospital planning, there are only a couple of 
places in this country that I know that have a shot at that 
right now.
    Mr. Murphy. In the few seconds that I have left, one other 
issue that hospitals have brought to my attention is with HCFA 
confidentiality standards. They wonder, will there be allowance 
to let a lot of it be thrown out the window in the case of an 
emergency and they don't have to jump through hoops to protect 
all kinds of things that they are trying to get information 
quickly across whatever methods that they have.
    Dr. Smithson. Actually, I will use New York City as an 
example here. They have made tremendous strides with something 
called syndromic surveillance, which I think is rather 
misunderstood. This has great potential to provide us with 
leading-edge indication that there is a disease outbreak in 
communities.
    And one of the things that they and others are working on 
is how you get crucial information without revealing sensitive 
information. I think they have made some good strides there.
    Mr. Murphy. Thank you.
    Mr. Shays. Thank you.
    Congressman Ruppersberger.
    Mr. Ruppersberger. I am probably going to make more 
statements than a question, but I will get to a question.
    First thing, I think the premise is, if we cannot protect 
our first responders and give them the resources to do the job, 
then they can't protect us.
    Now, Senator, your opening statement and Dr. Smithson's 
were excellent. I think--let's get to the bottom line as 
quickly as we can, and hopefully this won't be another hearing 
that we have and we all waste our time and nothing occurs.
    The bottom line is this, that we have not made this a 
priority--we have not made homeland security. I would not want 
Governor Ridge's job. I mean, Governor Ridge is trying to take 
Customs and immigration officers and make them sky marshals, 
two entirely different disciplines.
    Why does he have to do that? Because he is not getting the 
resources.
    The administration--believe me, this is not partisan. Many 
friends of mine on both sides of the aisle are very much 
concerned about the priorities of moneys and resources going to 
first responders, and that has to be dealt with.
    And I don't want to get, because it is really a side issue, 
but the fiscal policy right now is not working. You alluded to 
it, whatever it is, whether you are in favor of the tax cut, 
you are not in favor. But we have to reevaluate. If we are 
going to be out there taking the offensive on terrorism, 
dealing with homeland security, dealing with issues, Iraq, 
Iran, North Korea, we have to have the money.
    And this deficit is looming out there. And as long as it is 
there, I think the administration is going to be extremely 
reluctant--they have showed it already--not to give the 
resources.
    Now, if you are going to give somebody money, you have to 
hold them accountable for it. So the bottom line is that I 
think that your assessment for a national program is great. 
However, it is going to be very difficult, in my opinion. You 
can't tell me that--I described my district in the opening 
statement with an airport, a port and Army bases, versus in the 
middle of Utah, which I have traveled, and there are a lot of 
rocks out there. But you can't have both. And so it has to be, 
I think, looked at from a regional perspective and looked at 
where the priorities are.
    Second, you have to look at who is doing it well now. Now, 
I know in the State of Maryland, I happen to be vice chairman 
of our shock trauma system, which is a regional--rated one of 
the top systems in the world. It is very good. I don't mean to 
be parochial, but there is a system that works. They have had a 
lot of training exercises. It works from the training of the 
paramedics to the communication, all over.
    And there are other areas in the country that have this 
too. We need to take the ones that work well and look at what 
we are doing, so we don't waste a lot of money in training, in 
developing where we need to go.
    Now, from--the general question, because I have to get to a 
question now, the question basically is, where do you start? 
And I think we have to be--from a public relations point of 
view, so the administration will listen and give us the same 
resources that Rumsfeld is getting, because, you know, sooner 
or later, as you say--I am on the Intelligence Committee. I 
know where we are. I can't tell you where we are, but I know 
that there are a lot of issues out there.
    Al Qaeda is for real. Terrorism is for real. They are very 
patient. We have to be ready. Right now, you don't even have to 
be a terrorist if you want to go into a subway situation. And 
then there needs to be a response to that. That takes 
communication, it takes medical, it takes first responders, all 
of this coming together.
    So my broad question is, how do we get the attention of the 
administration to reprioritize where the resources need to go? 
Because that is bottom line.
    Senator Rudman. I have a very straight and simple answer to 
that, Congressman, that is, that you have to have a crash 
program mandated by Congress. There is a lot of support for it 
in both Houses, to set national minimum standards for first 
responders.
    Because, until you do that, you cannot go to the 
administration, you cannot go to the appropriators and, with 
any sense, say, we need X amount of money. Because then you are 
going to get the same answer that you have gotten over the 
years on many other subjects: Well, there is going to be waste 
and fraud and mismanagement.
    But if you can point specifically to, here are the national 
minimum standards, and you take the fire, police, emergency 
responders of 100 of the largest cities in America and say, 
here is the standard and here is what they have, then the 
message starts to sink in.
    Mr. Ruppersberger. Let's get down to the basics.
    Mr. Shays. I hate to interrupt the gentleman. I will give 
him more time.
    Dr. Smithson, do you agree with that?
    Dr. Smithson. I do agree with that. Pardon me for being a 
bit uppity here, but you guys write the laws and you control 
the purse strings.
    Mr. Ruppersberger. That is what my next question is going 
to be. You are talking about Ridge--well, I am in the minority, 
though, and I am a freshman. So I have a chairman who is very 
strong.
    Senator Rudman. That is not a disability, Congressman.
    Mr. Ruppersberger. Getting back to the issue, Ridge. You 
have made a recommendation. How would you implement that 
recommendation?
    Senator Rudman. I would pass legislation, and there are 
people in the Senate who are willing and able to do that. I 
would make this a key issue. I would raise it--elevate it to 
high visibility, and I would get legislation on the books which 
mandates the administration by a date certain to establish 
national minimum standards for first responders for homeland 
security.
    Mr. Ruppersberger. Well, if you are going to do that, don't 
you think you should have a recommendation on what those 
standards should be?
    Senator Rudman. No, I don't think you can do that. Because 
I don't think anybody truly knows. The expertise to establish 
those standards is out there in the country amongst your 
constituents, and together with Federal officials they can 
establish those standards.
    I mean, we have standards now. I mean, you talk to the 
International Association of Fire Fighters, talk to the 
insurance companies. There are standards for fire departments, 
depending on the kind of a city you are in, for fighting fires.
    There have to be standards for homeland security first 
responders across the board. Until do you that, you can ask for 
money until the cows come home, Congressman, and you are not 
going to get that.
    Mr. Ruppersberger. You know it.
    Another thing that is very disturbing now, and we have had 
this in other committees: Because of terrorism, there are so 
many of the resources that the locals are taking away from 
other areas. There is another issue out there, which we are 
going to have to get on top of, that so much money is being 
taken from drugs; and that is still is our No. 1 threat. And 
so, you know, this is an issue that has to be dealt with.
    I agree with you. I am sure Chairman Shays is a very 
forthright, aggressive person. Maybe we can develop something 
to that effect.
    Senator Rudman. I want to make one response to what you 
said. And I think you will understand this very well, knowing 
Baltimore and Baltimore Airport.
    The attack took place with airplanes. What was our 
response? To pour an enormous amount of resources into 
airports. I don't know how many billions it is now. But we have 
done all of this with airports. Now, maybe that was the right 
thing to do. But you always have to ask yourself the question, 
was that prioritization or was that responding to what we saw 
as an issue? Maybe a little bit of both.
    Mr. Ruppersberger. Well, there are a lot of ridiculous 
stories.
    Mr. Chairman, the Port of Baltimore that I deal with, a lot 
of issues we have in port security. Baltimore happens to be a 
ro-ro, which is a lot of vehicles coming on and off. Because 
they are not a container port, 50 percent are ro-ro; we are not 
getting as much money as the container ports.
    I mean, it is just--that is what I am talking about. I am 
very much concerned about the standards. It is going to be very 
difficult to pull these standards together.
    Senator Rudman. But it can be done.
    Mr. Ruppersberger. Thank you.
    Mr. Shays. Thank the gentleman.
    Mr. Tierney.
    Mr. Tierney. Thank you. I am not as nice as my colleagues, 
unfortunately, and I guess I don't really mean this to be 
partisan, but I do mean it to be a difference between the House 
and the Senate and the White House.
    There is--there is policy, and then there is execution, and 
whether it is a Republican or a Democrat in the White House--
and I hope we can see beyond that or whatever--there has been 
no execution.
    Back in October 2001, there was a bipartisan letter that 
went to this administration, to Mr. Ridge and to the White 
House, asking them for a threat assessment. October 2001. There 
have been calls made, there have been individual letters sent. 
We have been haranguing and harassing this White House and this 
administration for a threat assessment since the very outset, 
after September 11th.
    And I think that your recommendations are excellent, both 
of you have made them for some time now. I think that members 
of this committee, both Republicans and Democrats, have heard 
them. This chairman has been excellent on this issue; he has 
been a leader in the true sense of the word on this issue, and 
not hesitant to get on board a bipartisan effort; and he sees 
beyond the idea of whether or not this is political and 
understands the gravity of the situation in this country.
    We simply have to, as a Congress, get beyond that. We have 
to sit here and decide whether or not we are going to do what 
the Senator recommends, and think Dr. Smithson also agrees with 
that recommendation, that we have to raise the level, put up 
the temperature here and demand some execution.
    We should have had this threat assessment by this time. And 
I note that one of your recommendations, Senator, is, by the 
end of 2007 we have a threat assessment like that. That would 
be great, but that would be too late. It is probably the best 
that we can do in this scenario, but it is an unbelievable 
disgrace that despite the efforts of this Congress, this 
administration has failed to execute on that level. And we have 
just got to increase the pressure and work together on this.
    And I know it is going to be more painful for my colleagues 
on the Republican side than it is for us, because of the party 
that is in the White House, but this is beyond that, as you 
have said, eloquently; and I think we all agree here, we have 
to demand those standards.
    There are people out there that can do it. We can start by 
just asking the two of you to identify people; in about 5 
minutes we would a list well worth going to. You have RAND, you 
have other institutions out there that do great work in these 
areas. There is no excuse for not having it done.
    I think that if we look at just some of the recommendations 
in your testimony, and this Congress can do it, this committee 
can start doing it, by demanding that DHS and HHS put in their 
next budget a detailed methodology of how they are going to 
determine--it, in answer to my colleague's question, is 
probably best that they set forth a methodology of how we are 
going to get this information, then go about getting it and 
have a time line on that.
    I think we do have to have a system that is more 
transparent and fairer about how we are going to distribute 
these moneys, and we can do legislation along that line, or put 
some constraints in our budget, requiring that these things be 
done.
    Also, the most important one that I see in terms of my 
local responders here is some adamant statement about a 
distribution timeframe. You know, the next time that we put an 
appropriations bill out, I know we can do that. So I don't have 
a question here, but I don't think it is necessary. You have 
had an eloquent discussion of the issues here, and the 
recommendations from both of you individuals, I thank you very 
sincerely for laying it out so plainly and making it clear that 
these things are not just on the table today; they have been on 
the table for some time, and it has been a case of inactivity.
    And while I think that this committee and Congress have 
acted, I don't think we have acted forcefully enough. And I 
think it is time to set aside the timidity and set aside the 
partisan aspects of it, and recognize this as simply a 
prerogative of Congress to kick the White House in the backside 
when it is necessary to get it to execute on these things.
    I hope that we can work together to do that, to get the 
assessment, to get some timeframes on when distribution is 
going to get out there, and to get a real fair formula for that 
distribution and get moving. So I am happy to work with my 
colleagues on that.
    I want to thank both of the witnesses again for their 
excellent testimony and all of your service to this country.
    Mr. Shays. I thank the gentleman for his comments. And 
just--this may seem a little off subject, but it really relates 
to what you have said, Mr. Tierney. I think that the challenge 
for the majority party, frankly, is to be demanding a little 
more accountability on the part of the administration.
    And we have done a disservice to the administration, 
because the number we are seeing for our needs in Iraq--if we 
had asked sooner and demanded a number sooner, I think they 
would have been better prepared today than they are. And I 
think that it does now also relate to your whole issue of what 
the threat is.
    Before we had reorganization, Mr. Tierney was saying, don't 
we need to know the threat before we reorganize our government? 
And I felt we could do them in tandem. But I did feel we needed 
them, and I joined him in his desire to learn that. But we 
still don't have a threat assessment, which is, to me, pretty 
astounding, given that all three commissions said, know the 
threat in specific ways, then design your strategy around the 
threat, and then reorganize.
    What I want to ask you about is that my first reaction when 
you came out with your number was that it seemed to be a 
contradiction; and you really answered it, which I wanted to 
state. And that is, if we don't have a way to evaluate what we 
need, how can we then come up with a number that says we need 
this?
    What it appears is that your number was really an 
expression of what was requested on the part of local 
communities and States, and that it was a real estimate, but it 
was also kind of, I view, as a wake-up call. In other words, we 
need something far more than what we have now, and that is how 
I reacted to it.
    Is that the way I should have?
    Senator Rudman. Not quite. Almost. We got numbers from 
virtually all of those originations. Curiously, although they 
tried very hard, the police chiefs association could not give 
us--they just weren't comfortable giving us a number.
    The fire gave us a number. We did not take these numbers as 
they were submitted.
    Mr. Shays. Let me just say, parenthetically, we had a hard 
time getting the police departments to come. I asked, why are 
we just hearing from fire? And the police departments and the 
people we contacted just didn't want to step forward at this 
hearing and deal with this issue.
    Senator Rudman. I have no explanation for that. We 
certainly had their cooperation. We couldn't get a number from 
them.
    The fire departments across the country, we got good 
numbers from them and the responders. We adjusted those numbers 
somewhat. We did not just take the numbers we were given.
    Now, the other thing that was very difficult, and I am sure 
the chairman will understood this was to get a number that 
truly reflected what the delta is of expenditure by city, 
State, counties on terrorism-related expenses versus their 
normal budgets. So, for instance, you take the Arlington fire 
department--and you are going to hear from the chief of the 
D.C. department--what is their foundation budget, and what is 
it that they are spending on homeland security issues, first 
responder preparation, above that?
    We did a lot of work in that area. That is why if you look 
at the report you will find we worked with two of the best 
budget organizations in the city to help us put the numbers 
together, private organizations that are budget related. We 
therefore established a range, which is why in my opening 
remarks I said that we cannot tell you an exact number; but you 
can find out that number if you have a threat assessment and 
then mirror against that threat assessment what national 
minimum standards are for first responders. Then you will have 
the number.
    Mr. Shays. And I am going to ask Dr. Smithson to respond to 
the fire-police issue.
    But what I am struck with is, there may be a reluctance on 
the part of the administration to do this because it may set a 
standard that they don't think they can reach.
    But wouldn't you agree that even if we knew that we needed 
to spend a certain amount, and we, setting priorities, thought 
we couldn't reach it, that would be better than doing what we 
are doing right now?
    Senator Rudman. We say, set the national minimum standard, 
and then decide how many years it is going to take you to get 
to that standard.
    And, most importantly, when you decide that, the decisions 
on where to start first cannot be made politically. Every 
congressional district gets a pro rata share. You take a look 
at where the threat assessment is, and you make sure that is 
where the money goes first.
    Obviously, if I were king and you asked me, what would you 
do first, I would make sure that the 100 largest cities in 
America, the 100 largest cities in America, had chem-bio 
equipment for their first responders and first-rate 
communications and surge capacities for their hospitals.
    If you would give me my priorities, based on working on 
this now for 7 years, since I have been involved in this issue, 
that is where I think the money should go. But can I tell you 
how much? No, I cannot tell you how much that would cost. But 
that is a question of multiplication, once you decide how much 
people need it.
    Mr. Shays. When I was just making reference to the police 
and the fire, there are two different cultures here, you 
started to appear like you were going to respond to it.
    I would be curious to know what your comment is.
    Dr. Smithson. One of the reasons why training has not 
propagated as widely among the police is, basically, that their 
workday differs from those in the fire service.
    Fire service, you know, when the bell rings they go out. 
But a considerable amount of their time is spent in the 
station. For police officers, they are in the station for a 
brief period of time for roll call and morning news or shift 
news, and then they are out on patrol.
    So it has been much easier to get training propagated to 
the fire services. That is why I kind of, you know, made a face 
about the cultural differences there.
    Listen, we are all waiting for this threat assessment, But 
in the absence of a threat assessment--and I don't know when it 
is going to appear--what we need to decide to do is to do the 
most good for the most people, and that means going by 
population density. Institutionalizing standards will bring the 
rest of the boats up with the tide.
    And as for the recommendation that you go with the 100 
largest cities, fine, but let's define ``city,'' because when 
the domestic preparedness program was implemented, they went to 
the 120 largest metropolitan areas; and that meant the same 
training trooped to the same locations three different times.
    Mr. Shays. I don't know what you just meant. What do you 
mean the same training went to the same----
    Dr. Smithson. The same training went to the larger Denver 
area three times; it went to three different jurisdictions in 
the larger Denver area three times.
    What we need to do is to get the Denver area--sorry to make 
an example out of them--working regionally. And that means 
putting--making some type of a calculation to get the funds 
working on a regional basis.
    I know that is going to be tough, but if we think about 
this, we can get this done. And therein you will reinforce the 
mutual aid system; people will know who to call when it hits 
the fan, instead of wondering where the help is next door, and 
what it is that they can do to help.
    So that is why a regional approach is really advisable 
here.
    Mr. Shays. Let me just say I would be happy to give another 
round to whoever wants it.
    Mr. Tierney. If I might, I just want to make--I think we 
have some responsibility to deal with the unease of our 
citizenry. And the way to deal with it is to plan, is to have 
the things that we are talking about.
    It is just incredible that since September 11th our 
population, our constituents, from the fire fighters and the 
police officers all of the way down to the average person, 
regular person on the street, are in less than a comfortable 
situation. They sense great unease, because no one is telling 
them what the plan is.
    I think they can deal with it if we haven't got to the end 
of the plan yet, if we are moving in that direction, if--the 
uncertainty and the great feeling of unease come from the fact 
that, as the government, we have yet to give them an outline 
that we know, what we can identify as the problem; and we have 
to plan to get there, to some solution in a reasonable period 
of time.
    I think that is our charge. And thank you again.
    Mr. Shays. Any comment on that? Any other member?
    Mr. Ruppersberger. Yes.
    First, I think the regional approach is right. Again, we 
are asking for limited funding. We need to be held accountable 
for the results.
    And the regional approach is not duplication of effort; and 
if you want to have money, a requirement should be that the 
region comes together with a plan.
    Most of your counties and regional areas are larger than 
the cities in the middle. But the cities are the focal point. 
Because you talk about--again, I will be parochial to 
Baltimore. There are 2 million people in the Baltimore 
metropolitan area. Baltimore City has 630,000 people. But you 
just say ``Baltimore.'' It has to be a region.
    But that needs to be part of a plan. That is why I am 
concerned. I agree with everything that you said, and hopefully 
we will get something out of this hearing. I know that the 
chairman is a very proactive person, and he will run with this.
    But, bottom line, it is still about what type of plan are 
you going to put together and then get the votes for? I mean, 
we might need a vote of somebody out in Utah. But we need the 
vote of other areas.
    And you are saying basically, you do the regional approach 
where you can help the most people, and then you will bring it 
up the other way through the standards, the national standards; 
and that is how you will justify getting the money, correct?
    Dr. Smithson. Yes.
    Mr. Shays. Just before we have you all go, the other area 
that I wrestle with, I totally buy into your point about a 
crash program; and I know, Dr. Smithson, you do as well. But I 
have a hard time understanding how we allocate Federal, State 
and local. There are certain things that--frankly, I have my 
fire and police come to me, and I say, with all due respect, 
that is Bridgeport's responsibility or that is the State's 
responsibility, and don't use terrorist issues to try to get 
that money.
    How do we deal with that issue?
    Senator Rudman. Well, this is a personal opinion having 
been in State government in New Hampshire for many years. I am 
not a great fan of money going to States. I just never have 
been. It is another layer of bureaucracy.
    Mr. Shays. You want it to go straight to local?
    Senator Rudman. Yes.
    If you are talking about the--let's say the Washington, DC, 
region, whatever that means, Washington metropolitan area, and 
I agree it shouldn't be the 100 largest cities, the 100 
metropolitan areas, find those areas and decide what the 
standards are, and make sure that every police, fire and 
emergency responder organization starts to meet those standards 
with the money that is available.
    I don't think you need another State planning organization. 
You start getting competition with Governors, whom I respect a 
great deal, but that is not their issue. It is not the State 
that responds to this; it is the local governments that respond 
to this. And so I truly think, if you start looking at State 
grants--now, you may need State grants for certain activities, 
but if you talk about what we are talking about, the first 
responders don't work for the State, they work for communities.
    Now, that is my opinion. Others are free to disagree.
    Dr. Smithson. On this issue of burden-sharing, I couldn't 
agree with you more, which is why I made it a focus of Chapter 
7 in Ataxia.
    I have yet to meet the politician----
    Mr. Shays. Chapter what? I'm sorry.
    Dr. Smithson. Chapter 7 in Ataxia. You will see a series of 
proposals in there for how burdens can be shared between the 
Federal Government, the State government, and local 
jurisdictions. Who is going to pay the bill here is a big part 
of this discussion. And if we don't get that straightened out 
soon, we will see additional backsliding in the preparedness 
gains made to date.
    Mr. Shays. Right.
    Dr. Smithson. I have yet to see a politician who likes to 
talk about higher budgets or new taxes. But there are formulas 
that are available out there. And I agree with you, we should 
be going with the models that work.
    In this particular case, locally, I will urge you to look 
at what has happened in Florida, which passed a disaster fund 
bill, and how at the State level, this is done with a tax. They 
have local moneys going into disaster preparedness. And they 
are getting better prepared with each passing year that this is 
involved.
    There is definitely a part of this burden that the Federal 
Government should carry. But locals will be the first to tell 
you that all emergencies are local, and they need to carry 
their part of the burden.
    Mr. Shays. Great point. Let me just ask, in this national 
minimum standards--when we do that, would we also allocate to 
Federal, State and local how we think the resources--where they 
should come from?
    Senator Rudman. I think that it is a wholly different 
process altogether. I think, first, you set the standard, then 
policymakers have to decide how you are going to prioritize the 
distribution of whatever money is available against that 
standard.
    Mr. Shays. OK.
    Mr. Murphy.
    Mr. Murphy. Mr. Chairman, I just want to echo Senator 
Rudman's comments on the way things work.
    I know with fire companies in my district and other first 
responders who have received some Federal grants, oftentimes 
they sit around scratching their heads, trying to guess what is 
going to be funded. And it appears to me that the self-
contained breathing apparatus and radios seem to be the magic 
thing. Yet many of them say, who are these faceless, unnamed 
people in some Federal bureaucracy somewhere deciding what we 
need, when we know what we need in our communities? Then they 
have to guess.
    And those who are lucky enough to guess that they needed 
some breathing apparatus got it; and those who already had all 
of those things, but needed something else to help with 
response, didn't. It is an absurd way to run things. I think it 
works much better if there are established community standards.
    Knowing that happens in my district, which probably happens 
in many other districts around America, is there are so many 
fire departments, and every town and hamlet wants their own 
police department, police chief, as everyone else--that each 
one wants a full complement of equipment for everything. When, 
if they really look at what was needed regionally--for example, 
I have a strip of highway, 3 or 4 miles long, that I think 
there are seven fire departments within that area. Each one has 
to have their own everything. And getting them to coordinate 
that effort is very difficult, and much better if there is a 
standard. Say, here is a standard; if someone within this 
stretch needs that equipment, it must be shared.
    If we don't set the example on the Federal level, then it 
kicks back to the States. The States won't take a stand on it 
either.
    So I am in absolute agreement that we need to do that.
    Senator Rudman. I want to comment.
    That is absolutely right, and if you look at the cell, you 
will find there were certain types of equipment that you don't 
need every department to have, certain types of chemical 
detection equipment. As long as you decide how-many-mile radius 
it is, then it can be deployed.
    Mr. Tierney. I was wondering, Mr. Chairman, if Dr. Smithson 
could make available a copy of her report for the committee?
    Dr. Smithson. I would be delighted to. It has also been up 
on the Web since October 2000.
    Mr. Tierney. At?
    Dr. Smithson. Www.stimson.org. I have it on CD-ROMs. More 
than happy to make it available.
    Thank you, sir.
    Mr. Tierney. Thank you. And you came by the name of that 
document how?
    Dr. Smithson. Ataxia. It means confusion, and I think there 
is a great deal of confusion about the nature of the terrorist 
threat. It means lack of organization. And, well, I would argue 
that we are still not as organized as we could be. And last, 
but not least, it means involuntary muscle spasm. Since the 
research was principally about chemical and biological 
response, well, you can see where that one came from, too.
    Mr. Shays. I wondered that, too.
    Mr. Tierney. Thank you.
    Mr. Ruppersberger. We have had a lot of hearings, but I 
want to congratulate both of you. You have been focused, 
forthright, and you have come to recommendations that we can 
move forward with.
    I was in local government for over 18 years. I can tell you 
whether or not--it is not partisan, but as a county executive, 
when I got money from the COPS Program, as an example, it came 
directly to us right away--putting cops on the street right 
away.
    Anything else that, when you had to go through the State, 
the Federal bureaucracy, the State bureaucracy, half the money 
is gone before you ever got it. Now, right now, we have a 
program, that fire fighters grant program, it is the most 
popular program right now, where the money goes directly to the 
fire departments. Why can't we use that program now, as a role 
model, to move forward? It is a direct program. It is just like 
the COPS Program was.
    They are changing it?
    Mr. Tierney. They are moving it out.
    Mr. Ruppersberger. Here is an example of--we--I think there 
is agreement on this panel that we have to do something. And if 
we don't do something, something is going to happen, then we 
are going to be scurrying all over the place. But at least--and 
you can't conquer Rome overnight.
    The only thing I am concerned about, I keep getting back to 
this national program. If you are going to accomplish 
something, it can't be broad; you have to be focused with it.
    I am just concerned that if we come out with a national 
program, just say, here it is, we have to kind of, I think, 
tailor it from a recommendation point of view. If we are going 
to try to get votes from our colleagues, I just think we need 
to have a little more specificity.
    Can you help me there at all?
    Senator Rudman. I don't think there ought to be a lot of 
partisan debate about setting, A, a threat assessment, or, B, 
national standards. Now, once you have that done, then you are 
going to have some discussions about distribution.
    Mr. Ruppersberger. How long is it going to take to do that?
    Senator Rudman. I don't think all that long if you want to 
get the right people to do that.
    Mr. Ruppersberger. You can put in the bill a timeframe.
    Mr. Shays. But the gentleman--but what Mr. Rudman is 
saying, let's just know the reality; then we will deal with the 
politics after that.
    Senator Rudman. Nobody knows the reality right now. No one.
    Mrs. Maloney. But once we get to the politics, and we are 
dealing with the politics now in the high-threat areas, and if 
we direct to it 100 regions, we don't have the votes to pass 
it, because my colleagues will say, I live in a desert 
someplace, and we have--we are afraid of desert rats or 
something.
    Senator Rudman. Congresswoman Maloney, let me just respond 
by quoting Winston Churchill, when he said that democracy was 
the worst form of government, except for all of the others that 
have been tried.
    Mrs. Maloney. Very finally, your comment on your response 
to the airports, where we went in and made that the top 
priority, and it may not have needed to be the top priority. 
Can you elaborate? Do you think we made a mistake in putting so 
many resources in one area?
    Senator Rudman. My own personal opinion is that some of 
that money should have gone to port security, because I think 
that is a larger threat to major metropolitan areas.
    No question, we had to do a lot with the airports. But when 
you look at the number of billions spent, it was a crash 
program; there were no standards really thought about. It was 
done, it was hurried through Congress, there were fights about 
whether there would be privatization of the force and so forth 
or ended up public.
    My own personal opinion, having looked at this for a long 
time, is that some of that money would have been better spent 
in port security on America's major East Coast, West Coast and 
Gulf ports.
    Mr. Shays. Let me just quickly ask, because this committee 
is going to act on this, the national minimum standards that we 
would ask to be set up, are we asking DHS to do that?
    Senator Rudman. Yes, you are. They have--right within FEMA, 
they have the capability to do it. And they have all of these 
groups around the country that they have liaison with, who are 
more than willing to sit down and help.
    Mr. Shays. Time frame we should give them is how long?
    Senator Rudman. I would not give them probably more than 9 
months.
    Mr. Shays. OK. We do appreciate both of you being here. 
Thank you.
    Our second and final panel, that is, Adrian H. Thompson, 
who is the chief of D.C. Fire and EMS Department in the 
District of Columbia; and Mr. Edward Plaugher, fire chief, 
county of Arlington, VA, International Association of Fire 
Chiefs.
    Does that mean you are the head of it or are you just part 
of it?
    Chief Plaugher. Part of it.
    Mr. Shays. We are also joined by Deputy Chief Sellitto, who 
is with Chief Thompson. We will have two statements, but all 
three of you, we will swear you. If you would stand and raise 
your right hands, please.
    [Witnesses sworn.]
    Mr. Shays. Note for the record, our witnesses have 
responded in the affirmative.
    We will start with you, Chief Thompson, and appreciate that 
both of you are here. I would love to have you be able to 
incorporate any part of your statement into what you have 
already heard that you feel inclined to make, as well, in your 
statement.
    And we will do a 5-minute, and then we roll it over 5 
minutes.

 STATEMENT OF ADRIAN H. THOMPSON, CHIEF, DISTRICT OF COLUMBIA 
         FIRE AND EMERGENCY MEDICAL SERVICES DEPARTMENT

    Chief Thompson. Thank you. First, I would like to say good 
morning, Chairman Shays, members of the Subcommittee on 
National Security, Emerging Threats and International 
Relations. I am honored to be here to present today.
    I am Adrian H. Thompson, chief of the Washington, DC, Fire 
and EMS Department. With me is Michael Sellitto, deputy fire 
chief of special operations, and my acting assistant fire chief 
for operations, Chief Doug Smith.
    The District of Columbia Fire and EMS Department has been 
participating in the State Domestic Preparedness Program 
administered through the Department of Justice, Office of 
Domestic Preparedness, and is continuing to receive funding 
through this source. Although there is a delay from submission 
to receipt of funds, the appropriated funding eventually 
becomes available. We are also making use of Fire Act grant 
programs and are currently awaiting a decision on a possible 
award.
    The Department also submitted requests to the Federal 
Government for financial assistance in 2001, immediately 
following the terrorist attacks of September 11th. 
Specifically, we requested support in those critical areas 
where we judged we might have a shortfall if an event were to 
occur which caused loss of personnel or response equipment.
    We made requests for additional fully equipped fire 
apparatus, because having a ``ready reserve'' fleet is 
essential for sustained response during a major event or 
multiple-site incident that would otherwise strip the remainder 
of the city of essential services. The request also included 
additional technical rescue and hazardous material equipment, 
which would allow us to operate in the most effective manner. 
The funds were appropriated and expanded in accordance with our 
request.
    One important issue is the development of nationwide 
equipment standards so that emergency equipment can be shared 
across jurisdictional lines. Depending on finalized standards, 
the equipment bought earlier may have to be replaced to meet 
them. In addition, with the purchase of many highly technical 
pieces of equipment comes the added maintenance cost of this 
new equipment. It is hard to project necessary operating budget 
funding for this purpose, especially since much of this 
equipment was obtained after the fiscal year budget was 
finalized.
    Another major area in which we saw a need was an inadequate 
number of personnel with the necessary specialized training to 
perform the tasks involved in technical rescue and hazardous 
materials incidents. To fulfill these needs, we made use of the 
many Federal programs, including: Department of Homeland 
Security, Office of Domestic Preparedness programs; FEMA, 
Emergency Management Institute programs; and Fire 
Administration, National Fire Academy programs.
    These programs are all worthy of continued funding, as they 
are the standard by which all other training is measured. All 
of the above offer free training to agencies such as ours. 
However, this agency incurs overtime costs whenever we send 
members to training. Since our agency operates on a 24-hour 7-
day-a-week schedule, overtime is necessary to maintain adequate 
staffing while members are in training. Our September 2001 
request asked for specific language permitting use of 
appropriated funds to cover this expense. This request was 
honored, and as a result, we have achieved a major 
accomplishment in the area of specialized training. We now have 
a greater number of trained individuals, and in many cases, the 
individuals have been trained to higher levels than they were 
capable of in the past.
    Unfortunately, government training programs do not cover 
all areas of technical training, and it was necessary to 
contract out with private and institutional vendors for some of 
this training. The increase in numbers of personnel with 
specialized training will result in a corresponding increase in 
recertification costs to maintain the numbers at the new levels 
in the future.
    All training and procedures must be practiced regularly to 
ensure readiness. Training drills and exercises are now 
multiagency events. There should be a mechanism to encourage 
participation from local agencies which serve a support 
function during emergencies. These support agencies have 
limited funds to participate in these exercises, and as a 
result, full participation is not always possible.
    In regards to some of the shortfalls that we foresee in our 
agency in the city, in terms of equipment needs, to keep the 
latest technology available in areas of emergency medical 
services and biological and chemical field testing, continued 
funding for upgrades should be provided.
    To address our equipment maintenance needs, consideration 
should be given to allowing a percentage of our future funding 
to be allocated to equipment maintenance and upkeep.
    To address our training needs, it is essential that 
training requests be funded with specific language allowing us 
to use the funds for overtime purposes for backfill positions. 
In addition, first responder agencies should be allowed to 
contract with the private sector to fulfill needs unmet by the 
Federal programs and to use the training funding to support 
recertification as necessary.
    Finally, funding for training exercises must be available 
to pay the overtime costs for support organizations to ensure 
their participation in an exercise.
    I must point out the District of Columbia is unique, in 
that appropriated funds do not have to go through multiple 
layers of State, county, and local government to get to the 
point where the first responders can use appropriated funds. 
Unfortunately, our colleagues in surrounding jurisdictions have 
told us that funding no longer comes directly to them, as in 
the past, and must filter down to them through the middle 
layers of government, thus delaying the receipt of funds as 
well as decreasing the ultimate amount that they may receive at 
first responder levels.
    I would like to thank you for this opportunity to present 
our views, and am prepared to answer any questions you may 
have.
    Mr. Shays. Thank you, Chief Thompson. We will have 
questions.
    [The prepared statement of Chief Thompson follows:]

    [GRAPHIC] [TIFF OMITTED] T2127.017
    
    [GRAPHIC] [TIFF OMITTED] T2127.018
    
    [GRAPHIC] [TIFF OMITTED] T2127.019
    
    [GRAPHIC] [TIFF OMITTED] T2127.020
    
    Mr. Shays. Mr. Plaugher.

STATEMENT OF EDWARD PLAUGHER, CHIEF, ARLINGTON COUNTY, VA FIRE 
                     AND RESCUE DEPARTMENT

    Chief Plaugher. Good morning, Mr. Chairman and members of 
the subcommittee. I am Edward Plaugher, chief of the Arlington 
County, VA Fire and Rescue Department.
    I appear today on behalf of the International Association 
of Fire Chiefs, which represents the leadership and management 
of America's fire and emergency services. I am a member of the 
IAFC's Terrorism Committee and chairman of its Legislative 
Subcommittee.
    I have submitted for the record a prepared statement from 
which I will highlight a few of the key areas during my opening 
remarks. The stated purpose of this hearing is to review the 
recent Council on Foreign Relations' report entitled, 
``Emergency Responders: Drastically Underfunded, Dangerously 
Unprepared.''
    The IAFC, the International Association of Fire Chiefs, 
participated in the development of that independent task force 
report and agrees with many of its recommendations. I will 
begin with a quotation taken directly from the Council on 
Foreign Relations task force report, found on page 11: 
``enhancing responder capabilities will require inputs on 
multiple levels. Providing response equipment is only one 
aspect of improving overall preparedness. Without appropriate 
staffing, training of personnel, and sustaining equipment and 
capabilities over time, new equipment may contribute only 
marginally to greater preparedness. Wherever possible, the all-
hazards approach should be followed to ensure that, to the 
maximum extent possible, resources devoted to responding to a 
terrorist attack, can enhance underlying emergency preparedness 
capabilities for addressing natural disasters.''
    I continue, ``With whatever capabilities they have, 
however, America's local emergency responders will always be 
the first to confront a terrorist incident and play the central 
role in managing its immediate consequence. Their efforts in 
the first minutes and hours following an attack will be 
critical to saving lives, reestablishing order, and preventing 
mass panic. The United States has a responsibility to provide 
them with the equipment, training and necessary resources to do 
their jobs safely and effectively.''
    The fire service--as was alluded to earlier today during 
this hearing, the fire service is the only entity that is 
locally situated, staffed, trained and equipped to respond to 
all types of emergencies. America's fire service is an all-
hazards, all-risk response entity.
    I can appreciate that the Federal Government's focus on 
terrorism is by preventing terrorist acts from occurring and 
enhancing the ability of emergency responders to mitigate an 
attack when it occurs. That is why maintaining and enhancing 
the current Assistance to Firefighters grant program, now in 
its 3rd year, is critically important to terrorism preparedness 
and response. And Chief Thompson was just talking about their 
application for the Fire Act, and they are waiting anxiously, 
as are a lot of us, for the results of that request.
    Only when the baseline needs are met can departments 
enhance their capabilities. The Assistance of Firefighters 
grant program, we call it the Fire Act, is specifically 
tailored to accomplish this goal. Although funds in the Fire 
Act can be used to purchase specialized counterterrorism 
related equipment, the program is directed at addressing basic 
needs.
    In the report, they found that approximately one-third of 
the fire fighters on a shift do not have self-contained 
breathing apparatus, and that 57,000 fire fighters across the 
country lacked turnout gear. It is important to note that all 
of these items are so basic to emergency response that in 
addition to enhancing a department's basic readiness, they will 
certainly be used in the event of a terrorist attack.
    The IAFC strongly supports the Fire Act and urgently 
recommends that it be kept as a separate and distinct program 
under the U.S. Fire Administration. Under management by the 
USFA, a part of FEMA, the program has been an unqualified 
success. The reasons are, first, that the Fire Act grants are 
made directly to local jurisdictions after undergoing a 
competitive, peer-reviewed process which measures and ensures 
that money is being spent in a productive, responsible manner; 
second, the grants are needs-based, whereby the local fire 
departments must demonstrate an actual need for the proposed 
equipment or training; third, the grant program requires a 
copayment for the need from the local community by ensuring a 
``buying-in'' from local officials for the specific equipment 
purchased through the funding; and, last, the law has a 
``maintenance of expenditures'' provision which means that the 
Federal grant can only supplement, not supplant, local fire-
fighting funds.
    The important point to be noted is that the Federal funds 
are channeled directly to the fire departments for the purposes 
they are intended.
    The IAFC also supports the terrorism preparedness block 
grants administered by the Office of Domestic Preparedness in 
the Department of Homeland Security. While this program plays 
an important role in enhancing response capabilities to certain 
elements of the first responder community, it has not proven 
effective for the fire service since we lack centralized 
representation at the State level. We have neither a State fire 
chief nor a secretary of fire safety within any of the 50 
States.
    Mr. Chairman, in closing, I would like to quote my friend, 
the late Chief Jack Fanning of the Fire Department, city of New 
York, who died at the World Trade Center on September 11, 2001. 
In testifying before a Senate committee earlier that year on 
terrorism preparedness, Chief Fanning said, ``The emphasis must 
be placed on the most important aspects of the equation, the 
first responder and the first responder teams. If lives are to 
be saved and suffering reduced, it will be up to them to do it. 
At an incident, whatever the scale, fire fighters and other 
responders will be there within minutes, some quite possibly 
becoming victims themselves.''
    Chief Fanning's testimony ended with these words, ``They, 
the first responders, will do what they have always done, act 
to protect the public they serve. Knowing this, let us provide 
them with the tools they need to perform their duties safely 
and effectively.''
    Mr. Chairman, the subject of your hearing is of great 
importance to America's fire and emergency service. There is no 
question that the Federal support is required. The key issue is 
effectiveness of that support. That is why we are solidly 
behind keeping and enhancing the current Assistance to 
Firefighters grant program as a separate and distinct program. 
The current program administrator, FEMA, has done an 
outstanding job which we, the IAFC, fully support.
    I appreciate this opportunity to appear before the 
subcommittee, and will be pleased to respond to any questions.
    And, Congressman Shays, I go back several years ago when we 
were also in a committee--subcommittee meeting prior to 
September 11, when we were talking about this very same issue, 
which was emergency responder preparedness. And the focus of 
that was a lot of what is contained in this report and what we 
needed to do at that time.
    So, again, I am ready for your questions at any time.
    [The prepared statement of Chief Plaugher follows:]

    [GRAPHIC] [TIFF OMITTED] T2127.021
    
    [GRAPHIC] [TIFF OMITTED] T2127.022
    
    [GRAPHIC] [TIFF OMITTED] T2127.023
    
    [GRAPHIC] [TIFF OMITTED] T2127.024
    
    [GRAPHIC] [TIFF OMITTED] T2127.025
    
    Mr. Shays. Thank you very much. We will start with the vice 
chairman of the committee.
    Mr. Turner. Thank you, Mr. Chairman.
    The discussion that we have had here today has clearly 
identified huge holes in what our response has been since 
September 11th. And how to close it, it seems as an issue 
that--I am not quite certain, after having heard your testimony 
now in contrast to what we have heard before.
    Having been a mayor, my view of communities is that they 
are separate and distinct and that the needs that they have are 
going to be both individual, based upon the experience, the 
investments that they have made to date; what equipment that 
they do have; and also the actual threat that specific 
community might have.
    Also, their metropolitan areas are organized differently, 
and we had the discussion here, do we go through a major 
metropolitan area or do we go through cities. Some cities are 
very small geographically, but have very large metropolitan 
areas; some cities actually encompass their entire territory.
    In talking about the issue of national standards, I mean, 
to recognize that there are some things obviously that we need 
to look at for national standards; and you mentioned some of 
those. Obviously, that goes to protective gear that first 
responders are going to have. That goes to not only saving 
their own lives, but also their ability to function and save 
others. So some of those are pretty easily identified as items 
that we need to undertake.
    When you look at both then, States or a national threat 
assessment, I do get concerned as to how some of these issues 
might be lost. What are your thoughts--you heard the testimony 
in the first round--about a national threat assessment; and 
then some of the mechanisms that you have just discussed, a 
peer review and more local participation in identifying our 
threats?
    Chief Thompson.
    Mr. Sellitto. We were lucky enough to participate in a 
pilot program with the Department of Homeland Security where we 
have just done a threat vulnerability, capabilities and needs 
assessment. It is part of a new computerized program that they 
have; and participating in the pilot program, I think that is 
the way they need to go.
    Apparently, it is now expanding out to other States. And 
they are trying to capture a lot of that information that we 
were just talking about--the threat, the vulnerability, and 
everything else--to try to come up with a comprehensive package 
that I believe is going to lead to how we are going to allocate 
some of the additional funding in the future.
    Mr. Turner. So you did participate in a threat assessment 
program with the Department of Homeland Security?
    Mr. Sellitto. Correct.
    Mr. Turner. And it was tailored to your individual 
community? It was not--in other words, the process was to 
identify your specific threats and your specific needs rather 
than looking at the national level?
    Mr. Sellitto. It was looking at the National Capital 
Region. It was a regional effort.
    Mr. Turner. You thought the program was a good one that 
they had?
    Mr. Sellitto. It probably needs a little bit more 
development. Like I said, it was a pilot. But I think it was an 
excellent start; it is moving in the right direction.
    Chief Plaugher. We also participated in that assessment, 
and we found several areas that needed improvement. It was a 
program that was--as the Chief was saying, that was brought--it 
was a computerized program that they asked the communities in 
the entire Washington metropolitan area to respond to various 
questions. Large numbers of actual elements were in the 
program.
    What we found troubling about the system and the program is 
that prior to us taking that assessment, they didn't sit down 
and say, what would you think would be the key areas needed to 
be prepared for? They just kind of dumped it on you and said, 
here is a program, fill it out. And it was troubling from that 
standpoint. Because we said, what about these six or seven 
other key areas? And they said, well, it is not included in 
this assessment.
    Well, that is kind of troubling, particularly since in your 
first do, and particularly my first do is the Pentagon, when we 
have a huge national target there. And why wasn't some of that 
focused into this assessment tool, and why weren't some of the 
other things that we thought critical?
    So I think the chief is absolutely right. They need to go 
back and revisit the assessment tool.
    They also need to get some direct local government input 
into that instrument, and also as part of that instrument allow 
for separation, national group and then a regional group.
    Mr. Turner. Do you know how the assessment was put 
together?
    Chief Plaugher. They just bought it from a contractor and 
sent it out to us. And I have a real problem with the 
contractor too, but that is a whole other issue. It could be 
part of my bias. So I have to admit that.
    Mr. Turner. Thanks.
    Mr. Shays. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I would like to just keep it focused on one issue, because 
you have articulated most of the other, much to my 
satisfaction, and others I am sure.
    The Fire Act and whether or not it continues to be 
administered the way it has been since its inception, or 
whether we allow it now to be changed so that the money no 
longer comes directly to the end user, I would like your 
comments on the wisdom or lack of wisdom in making the change; 
and what you think has worked about the program, having been 
funded the way it has been to date; and if you think it would 
be an improvement to go the other way, why.
    Chief Thompson. In regards to the city itself and the fire 
grant appropriations that we apply for, I think our biggest 
concern is the copays that we have to pay. Our budget is 
limited, as it is. If you apply for a grant for $1,000, you 
have to come up with a matching or a copay with it. Your budget 
is tight as it is, when they are first drawn up; so if you have 
to apply for the fire fighter grant, you have to squeeze some 
money out of someplace else just to match the funds. It makes 
it kind of difficult on the rest of the year for the budgetary 
process in terms of making sure we are where we need to be just 
in terms of the money we allocated initially.
    Also, streamline the turnaround time in terms of getting 
them back us to. We got a request in for a grant for PPE gear 
for our EMS workers. It has taken a while to get it back. In 
that time, we could have had a major catastrophe in the city--
where would we be on the PPE gear, that kind of thing.
    Chief Plaugher. The basic aspect of the Fire Act that is, 
we think, key, is the fact that it is direct to the local 
governments. And I understand the city's perspective, and 
obviously the match is of concern to all of us.
    But it is a two-tiered match. It is based upon population, 
but it shortchanges all of the bureaucracy of the States that 
was alluded to during this session, and that is, that every 
time you add a layer, you add not only delays, but also groups 
that take slices of the money away from the intended purpose, 
whereas this is pretty straightforward.
    Congress sets, in this particular year, $750 million. It 
goes to the U.S. Fire Administration. They have a small 
administrative overhead portion of it. The rest, a group of 
fire chiefs and other fire officials sit down and they go 
through each grant in its own separate category, and then they 
make awards; and then the awards come to the city through a 
notice, and you go about doing what you need to do to 
accomplish what the grant set out to do.
    So it is not cumbersome, it is straightforward. Just 
exactly the opposite of that are the terrorist grants or the 
homeland security grants. They are, first off, almost 
impossible to figure out where they are and how you get them. 
And, second, they are extraordinarily cumbersome. You know, you 
have to do a whole host of things to prove that, a, you are 
buying an item off of an approved list, and, b, that it is 
something that fits into a program yet to be determined. And so 
it is--you know, there are so many parts that are very, very 
vague and difficult and hard to administer.
    I know in the Commonwealth of Virginia which--we have been 
very fortunate, and nobody is criticizing Congress for how the 
Commonwealth of Virginia is being treated. We have received 
$204 million of homeland security grants, and that is a large 
amount of money. And, you know, very large State, very large 
population.
    However, out of the $204 million, and I am talking about 
out of grand total sum of $283 million----
    Mr. Shays. What is the population of Virginia?
    Chief Plaugher. About 7 million. Arlington County, out of 
that $204 million, we are going to eventually receive about 
$600,000. And we were talking about before, about the threat, 
the nature of threats and obvious concern for certain items.
    You would think that our needs would be addressed first 
because of the nature of what we have in our area. But that is 
not how the program is run. Strictly by population, each 
community gets a sum of money, and then they add a certain 
amount per capita on top of it.
    So it is turning out to be a very difficult thing for us to 
administer and to provide what we think is necessary.
    Mr. Tierney. Thank you. You have put on the record for us 
exactly what I thought you were going to put on, but I think it 
is important that we do that.
    My fire chiefs have made this extremely clear. At my 
request, they have forwarded communications to Secretary Ridge 
and the White House. I suspect that the fire units across the 
country are doing that. I thank you for that. And maybe we will 
get some results there.
    Chief Thompson, just let me wind up by saying that we have 
made a couple of attempts during the appropriations process to 
see if this administration would be willing to waive the match 
on a 1-year or 2-year term, whatever; try to get some of these 
grants out, because I know of the tremendous amount of 
expenditures on overtime that happened after the anthrax scare 
and the immediacy of September 11th. We have not had success so 
far, but we have not been that far away.
    I think that we might be able to get some cooperative 
effort to keep trying to do that, at least to give you some 
breathing room between your problems that you have had because 
of the immediacy of it and after that.
    So thank you very much.
    Mr. Shays. Thank the gentleman. Mr. Ruppersberger.
    Mr. Ruppersberger. In the previous testimony that we talked 
about, the resources of money, and there's just not a lot of 
money there and we have to make sure that whatever we get we're 
going to make sure we get the best bang out of the buck, and 
there was an issue of regionalism. Now, you know, we have both 
the two departments connected I guess to each other, and it 
seems to me that if we could develop a formula where we could 
come and maybe apply for this money on a regional basis so 
there wouldn't be duplication of effort and especially in 
training, I mean there's certain moneys that you need. 
Equipment. But even with equipment if you all decide and there 
is a standard of the type of equipment that you need, maybe for 
biological and chemical as an example, what--how do you think 
that would work in the Washington Metropolitan Area. Is there 
that cooperation now? Does it need to be better? You know, 
putting together a program that the entire region asks for. And 
I think we'd all have a lot better chance. A region, wherever 
we are in the country to pull the regions together to get the 
resources that we need. Can you respond to those, both?
    Chief Thompson. Actually working with Mr. Mike Burns, the 
National Capital Regional Director for Homeland Security, he's 
met with our COG Group, Council of Government Group in the 
jurisdiction area quite often in terms of our needs and what I 
think our necessities are for operating in case of an incident. 
He's been very supportive of what we're trying to do in terms 
of regionalizing our efforts in terms of equipment 
standardization and appropriation of funds to get the needed 
equipment, those kind of things. In addition, working with 
Chief Plaugher through the COG chiefs, we all sit down often at 
meetings and discuss the regional issues of operations and 
equipment. Communications gear being one of the primary things, 
being able to communicate at all with other jurisdictions in an 
incident of any magnitude or size. As evidenced by the Pentagon 
incident where if you have radios and don't have 
interoperability of them you have trouble communicating with 
the incident commander other than the old face to face or relay 
type, tag team type of thing. And we also coordinate efforts to 
make sure thats smoothed out, everybody's on the same frequency 
and same channel with the same type of radio to operate 
properly to stay safe.
    Chief Plaugher. I thought the previous testimony was 
absolutely right on target about a couple of things, one of 
which is the standards. I think it's absolutely critical that 
we establish a set of national standards by which departments 
can judge their preparedness level and then it actually should 
be a very open process where you communicate back to your 
citizenry exactly where you are on this preparedness scale and 
the standards should be well established, well researched and 
they also alluded about it should be done quickly. We shouldn't 
now 2 years later still be trying to figure out what our 
standards are going to be in this arena. The fire service 
services are standard driven. We do almost everything by a set 
of standards and we have found a long time ago that 's the best 
way to protect our communities across this country.
    The earlier testimony also talked about regionalism and 
about the need for that. One of the things that they did not 
however talk about during regionalism, and I fully support what 
they said about regionalism, was the fact that regionalism is 
how you leverage sustainability and long term success. If I am 
in a regional partnership with the chief here, there is no way 
that I'm going to let my relationship with him slip. So I'm 
going to guard that regional relationship with everything that 
I have and communities will do that, where our pressures will 
push and pull if it's a single community. If it's a single 
focused or single governmental entity other forces will push, 
pull--you were a county administrator, you know how that 
occurs. Push, pull, and the choices are then made.
    However, regional efforts don't seem to take that same kind 
of beating. They seem to be sustainable. You can also then 
leverage through a regional effort where otherwise you cannot 
get. There is no need for every community or every fire 
department to have one or two or three of the widgets. Make 
sure that there's enough of the items that are around, enough 
trained people and that the region then has the capability to 
adequately respond within a reasonable and necessary timeframe. 
So I think the earlier testimony was right on target. And so I 
fully support the whole regional effort.
    Mr. Ruppersberger. Here's--but you need to talk about 
implementation. Because when September 11 hit our Governor 
pulled all the county executives of the seven major counties 
together and asked for a list of inventory that we needed so we 
could make a request. Well, some of us were right on and we 
came with what we thought was what we needed. Some others came 
with five times as much. Just that really hurt the process. So 
my--what I'm going to ask is that first you have county 
executives and the mayors that you have to deal with, it seems 
to me, and ask if you would consider going back to your first, 
your fire regional group that you meet on a regular basis and 
talk about the testimony today and let's talk about 
implementation and the possibility of coming up with some type 
of plan where you could agree maybe on the same type of 
communication equipment, maybe the same type of training, you 
know, whatever that may be. And I would hope we could do that 
with the police departments. Now, again, if it's going to work 
the boss has to be--the top person has to be for it. But if you 
could pull together and say this makes sense, that would help 
us, at least this committee with the leadership of Chairman 
Shays, to move forward and to try to do something about what 
we're talking about here today.
    Do you think there's a possibility you could do that?
    Chief Plaugher. Through our Regional Council of Governments 
those efforts are currently underway.
    Mr. Ruppersberger. I'm aware of that. And then you have 
Montgomery, you have Prince George's. I'm aware of that. But 
you know you get too bureaucratic sometimes if you get a lot of 
people involved.
    Chief Plaugher. We're also very fortunate in the fact that 
we do have a coordinator. Mike Burn is our coordinator for the 
National Capitol Area and a lot of these regional efforts are 
being facilitated by his effort as well as the funding that is 
available.
    Mr. Ruppersberger. But would you all consider taking this 
back to your groups?
    Chief Plaugher. Absolutely.
    Mr. Ruppersberger. As you're coming up with some type of 
formula on what you could at least agree to in the region and 
maybe the region beyond just Washington, Virginia and Maryland 
because you do have a national connection of governments, that 
might go a long way in setting a model or at least help getting 
forward to get what we need, because there's just never going 
to be enough money.
    Chief Plaugher. Absolutely.
    Mr. Shays. I thank the gentleman. In determining what the 
threat is and how we allocate resources, we would look at 
standards versus flexibility and we would look at all hazards 
versus threats specific. And one of the reasons you all like 
the fire grant is it basically is pretty general in nature and 
you can apply it where you want. But if we were basically to 
determine the threat assessment and we were going to allocate 
resources based on that there would be very specific things we 
would want you to get and other things we wouldn't allow to be 
part of that grant. Is that basically logical and acceptable or 
have we spoiled you in this general, you know, grant that you 
can apply to anything?
    Chief Plaugher. Well, we also think there needs to be a 
baseline of capability in every community and so that's our 
starting point and that's what the Fire Act is so good at. 
Because there's a limited funding within the Fire Act, there 
hasn't been enough to move it past its basic categories that 
it's now funding and so that is why they're still buying--it 
was talked early about buying a lot of breathing apparatus, 
protective clothing, and also one of your committee members was 
talking about if departments had known that and they applied 
for it, they got the money, and that's still because we're just 
trying to cover the base front. We haven't moved past that. The 
needs were huge.
    The first year of the Fire Act there were 19,000 
applications and billions of dollars worth of requests and 
that's because the baseline piece hasn't been done. You have to 
then overarch that with preparedness for terrorism, and that's 
why this council's report, Council on Foreign Relations report 
says that the number is so huge is because we first have to 
cover the baseline and then we have to on top of that apply our 
ability to respond to a terrorist attack.
    Mr. Shays. Let me just followup with you then. I mean my 
reaction is if--what should be Connecticut's responsibility for 
needs in Virginia or what should Virginia's responsibility be 
for needs in Connecticut? I basically conclude that it should 
be for the terrorist aspect of it. But I'm not sure it should 
be because you need a certain equipment that you should have 
anyway. That's kind of what I'm wrestling with.
    Chief Plaugher. Yeah, the economic reality, however, is 
that our State and local governments are facing very, very 
tough economic times. And if we're going to provide protection 
for terrorism across the citizenry of our country, we've got to 
do a few basic things. And so I think that it would be an--in 
an ideal world, Mr. Chairman, it would be an ideal world to be 
able to take your approach and say every local government has 
to pony up for X number of baseline equipment and capability. 
But that's just simply not happening. So we can't get to the 
other end where we need to be, which is full preparedness, 
without that. So I think the assistance program, that's why 
it's called the Fire Fighter Assistance Act. It is there to 
just kind of nudge communities along and try to get them to 
focus on this issue. I think it needs to be in concert, 
however, with our standards making process, as well as our 
preparedness levels. Right now they're kind of in two separate 
tracks and they're kind of separated.
    Mr. Shays. We asked both of you because you are right in 
the center of the storm. I'd like to know how well prepared you 
feel right now for a terrorist attack, be it chemical, 
biological or serious conventional or radioactive materials. I 
mean, tell me, in your mindset, do you think you're 20 percent 
of the way there, 80 percent of the way there or is it even 
impossible for you to respond to? Chief Thompson.
    Chief Thompson. I'll speak very briefly. First, in all 
issues in terms of city preparedness, we're better prepared 
than we were 2 years ago, especially in terms of our first 
responder ability for EMS and fire suppression or HAZMAT 
mitigation or for biochemical attacks. Before we had access to 
funding we were woefully inadequate in terms of training and 
equipment. We have come to a certain level now. As the chief 
said, the baseline. We've got the baseline now. We've just got 
to maintain where we are and be prepared to go beyond that in 
terms of training and equipment issues that come about, new 
training issues that come about.
    Are we ever fully prepared? Never that, because you can't 
prepare for any contingency. I mean, things happen that you 
don't expect but we're better prepared than we were previously. 
I'll let Chief Sellitto speak more to the issue of preparedness 
from his side, special operations side.
    Mr. Sellitto. Again, when you say you know how prepared are 
we, are we ready, you know, again, we don't really have 
something to measure it to. We've made leaps and bounds since 
September 2001 through the use of the Federal funding that we 
were lucky enough to receive quickly. We got the money. We were 
able to use it. In all areas, the training, the apparatus, the 
equipment, we're a lot further ahead than we were on September 
11.
    If you look at it, like I said, where do we have to be and 
what's the local responsibility compared to the Federal, I'm 
just going to give some rough numbers. We have roughly 1,200 
firefighters, with roughly one quarter of them on duty at any 
given time. So we have about 300. We had about 350 masks, 
breathing apparatus on September 11, which on any given day is 
more than we need to operate, OK? But now you take a scenario 
like September 11 where we recall hundreds of men and maybe 
lost hundreds of those units in an event, is 350 enough? No. So 
we've gone out and purchased another 200 and again we got 
funding to do that. So we're sitting a lot higher than we were. 
Is that enough to cover every event? I can't say.
    Mr. Shays. And they're trained to use that equipment?
    Mr. Sellitto. And we're trained to use it. And again we had 
over $4 million just for training and again that was----
    Mr. Shays. And you've had a number of table top exercises?
    Mr. Sellitto. Numerous.
    Mr. Shays. Chief.
    Chief Plaugher. I think we're as prepared as any Fire 
Department in the United States, and I am talking about the 
Arlington County Fire Department, because of the work that 
we've been doing since 1995 for chemical attacks. So in that 
one arena I feel like we've made tremendous progress since 
1995. The other areas of preparedness, and I'm talking about 
the full family of first responder preparedness, our colleagues 
in law enforcement, our colleagues at the hospitals, public 
health officials, those sort of things, they are woefully 
inadequately prepared for these and we're in the process of now 
of applying the few funds that we were able to receive from 
Homeland Security to that arena, buying protective clothing for 
police officers, hospital employees and that sort of thing. I 
think that when it comes to other key areas such as was 
addressed earlier this morning about hospital preparedness and 
hospital surge capacity, we haven't even begun to prepare for 
that. And we are, again, in sad, sad shape because again, the 
nature of the problem, as Dr. Smithson was talking about, is 
that it's such a difficult problem with the private sector and 
nonprofit piece of the hospital pie that's there as to 
preparedness.
    So, again, to answer your question, Mr. Chairman, it 
depends upon preparedness for what arena. And so it goes across 
the entire scale of maybe the seven to eight for chemical 
preparedness and there's still room for improvement and 
resources can be applied all the way down to a negative 
something when it comes to hospital preparedness because we've 
not done well.
    Regionally, we're nowhere near where we need to be. We're 
trying to embark upon a major effort in the Commonwealth of 
Virginia through the State police divisions. I'm forced to work 
through my Commonwealth of Virginia. The laws of my State say 
that I have to apply time and energy working through 
relationships within the Commonwealth of Virginia. That's where 
our funnel is for request for equipment and the systems that we 
have. And that's not a bad thing. That's a good thing to have a 
State relationship.
    So again, we're preparing in a multiple of fronts. We're 
preparing in the regional, COG regional effort with our 
partners in both the District of Columbia and Maryland suburbs 
as well as we're preparing within the State arena. So there's a 
lot to do. But the regional pieces are nowhere near where they 
need to be.
    Mr. Shays. I realize we just have firemen here, but, and I 
mean just in the terms of my question. Dr. Smithson was very 
clear that--and I spend nights with--in fire houses, which is a 
lot of fun for me. For one, I've never gone to a better 
restaurant. But two, just great people to talk with. But there 
is a lot of opportunity to train because you have--when you're 
not putting out a fire and so on and so, it's something I 
hadn't really focused on but you just tend to think in terms of 
training a little, I think more clearly. But we really did not 
have a lot of police departments say they wanted to come to 
this hearing. Is that because their basic first response is 
going to be crowd control and they feel they know that anyway? 
Or, I mean in your dialog with police chiefs, how do you guys 
view your various roles? I mean----
    Chief Thompson. Well, in terms of city function with MPD 
and how we coordinate and liaison together, pretty much they're 
the law enforcement end of security, securing a site, 
protecting a site and making sure that we have access to a 
site. They also have the capability, MPD does now, of if an 
incident occurs and it's of a criminal nature; they have 
equipment to go in and make the investigation possible by 
special equipment they have purchased recently. We work very 
well together with them on incident command systems in terms of 
a large incident or a small incident, how we coordinate our 
efforts together and definition of roles and who's got 
responsibility for what.
    From my standpoint with Chief Ramsey and his group, MPD 
side, they understand their role is primarily to secure the 
site if a law issue is there, MPP would be there to handle the 
law end of it without any suppression mitigation of the 
incident.
    Mr. Shays. Obviously if they went to a site they might need 
equipment to protect themselves from chemical exposure and that 
type thing?
    Chief Thompson. Based upon if they arrive on the scene of 
the incident first without any prior knowledge, quite naturally 
they'll call us. But then again if they come on the scene, 
we're there, they got pre-knowledge of equipment they may need 
to bring. They have the equipment that they have purchased for 
their use, yeah.
    Chief Plaugher. We work daily with our colleagues in law 
enforcement, both with the police department and our sheriff's 
department, are two key elements within our ability to respond 
as an emergency team. They are in the process of being better 
protected. Each one of our law enforcement officials has been 
trained for basic knowledge and has some protective equipment. 
But they have a huge role to play in maintaining the civil 
order of our community in the event of any terrorist attack and 
their visible presence as well as their knowledge and ability 
to respond to the citizenry's questions about what is going on 
and what actions the citizens should take or not take is 
absolutely vital. You don't want that blank look on a police 
officer when a citizen comes up and asks them what to do. They 
need to be able to articulate exactly what the plan is and how 
things are to be unfolding. In the event of a bio attack, I say 
that the law enforcement slice of our community will be vital 
and their ability to adequately respond to a bio attack is 
monumental. The need to provide for security of our medical 
facilities, the need to be able to adequately maintain civil 
order I think is high on the order, and that's going to mean 
protecting those law enforcement officials themselves as well 
as their participation within our incident command structure 
and systems that the chief was talking about earlier.
    So I think it's unfortunate that they're not here. It's 
unfortunate that the International Association of Chiefs of 
Police aren't here to talk about this report because my 
estimation is that they would be saying that this report is 
also very much on target.
    Mr. Shays. Thank you very much. Anything?
    Mr. Ruppersberger. Just one comment, Mr. Chairman, and the 
question you asked, and maybe I got it right or wrong, but the 
issue of whether or not the resources that would come would 
just be dealing with the issue of first responder terrorism and 
would that really be the focus of it. And it seems to me that 
everything that you're talking about, whether it's biological, 
chemical, we have HAZMATs, you know, things like that, that 
these resources you'll get could also be used in natural 
disasters. I mean the training, it's about a system. It's not 
about just given this. It's about the system you create that 
works, from the first responders, the paramedics, whether it's 
the suppression, the police coming together and then taking 
victims to hospitals and how we get to the hospitals, your 
communication systems.
    So in the end, I mean I have always believed if one door 
shuts another opens, you know. In the end if we get this 
together we will be better for this years to come, if we can 
ever get it together right now, and that's what we're talking 
about here today. Do you agree?
    Chief Thompson. Absolutely agree. Sure.
    Chief Plaugher. I think all hazards and the all hazard 
approach is absolutely vital to our preparedness. If you're not 
prepared for a hurricane you're not prepared for a terrorist 
incident. If you're not prepared for a terrorist incident you 
can't be prepared for a hurricane.
    Mr. Shays. Right. The issue that triggers to me though is 
you should before September 11 have been prepared for some of 
these. And where does the Federal Government step in to make 
sure that we have a protected system around the country for 
this new revealed phenomena, which is terrorist attack; in 
other words, the human-induced crisis?
    Chief Plaugher. Well, the Oklahoma City attack, which was 
obviously an early warning from my perspective, an early 
warning event for this country, should have moved us further 
along in the preparedness and I allude to earlier hearings that 
were held here and you know you were having a hard time getting 
people to even talk about the subject back in those days. And 
so I commend you for your efforts. You made a great deal of 
effort to try to move us along on that scale and we're now 
starting to see a diminishing of interests in this arena and we 
just simply cannot let that happen because we're not there. We 
are not there on the natural level and we're not there on the 
mandate level either.
    Mr. Shays. I hear you, and we need to do that. What I'm 
wrestling with is I ask myself if this had been a Democratic 
administration, what would I as a chairman of a committee be 
asking for, and I think I would be asking for more than I have 
been asking, you know, which is a good wakeup call for me.
    Mr. Ruppsersberger. Well, I'm glad you said that because 
that's leadership.
    One other comment I could make. The police aren't here, but 
I think it's important, another role that we haven't talked 
about, but if resources are going to go to our police 
departments there's a lot more resources that need to go into 
intelligence because if you look at what really in my opinion 
has deterred another September 11 incident, is the--not only 
the intelligence but the cooperation between the CIA, the FBI, 
the NSA, the State and locals, including educating the public 
because a lot of leads will come from the street. So that is 
another area that from this committee point of view we're going 
to get resources where we have to put in money into this.
    Chief Plaugher. And when you do that look real hard at the 
fusion center concept because they are absolutely critical, 
that we build fusion centers and we build a regional team of 
fusion centers so that we can maximize any and all intel into a 
workable product and that it goes across the entire spectrum of 
the response community. In other words, that it has an 
opportunity to feed all fire EMS as well as law enforcement 
communities and that nobody gets missed in the product of a 
fusion center. And I think they're going to be vital. I don't 
see how we can do it without it.
    Mr. Shays. This is where you use the classified and the 
every day information and put it all together?
    Chief Plaugher. Yes, sir.
    Mr. Shays. Yes, I have the view that had we done that we 
would have probably known about September 11.
    Chief Plaugher. Yes, sir.
    Mr. Shays. Thank you all very much. Any last thing on the 
comment before we adjourn? You have been a wonderful panel, and 
thank you.
    Chief Thompson. Just like to say one thing, particularly in 
terms of issues we've discussed here in terms of 
standardization of training and equipment across the country. 
We interact with the COG group as a COG group with the other 
jurisdictions in terms of equipment and purchase of equipment 
and how they'd be compatible for use. But if Chief Plaugher's 
group goes down to somewhere in Loudoun or in Richmond and the 
equipment is not so much as standardized on a national level, 
they operate in a vacuum because they can't work together. They 
just can't do it. It's almost impossible, to work together. 
Then you have a catastrophe to respond to an incident they 
can't be prepared for, they're not prepared for. You need 
national standardization of training and equipment. It's as 
simple as that.
    Mr. Ruppersberger. And communications.
    Chief Thompson. And communication, absolutely right.
    Mr. Shays. Thank you very much. This hearing is adjourned.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]


</pre></body></html>
